<html>
<title> - REID-KENNEDY BILL'S AMNESTY: IMPACTS ON TAXPAYERS, FUNDAMENTAL FAIRNESS AND THE RULE OF LAW</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
REID-KENNEDY BILL'S AMNESTY: IMPACTS ON TAXPAYERS, FUNDAMENTAL FAIRNESS 
                          AND THE RULE OF LAW

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 24, 2006

                               __________

                           Serial No. 109-153

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-605                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                            AUGUST 24, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable Martin T. Meehan, a Representative in Congress from 
  the State of Massachusetts, and Member, Committee on the 
  Judiciary......................................................     6

                               WITNESSES

The Honorable Andrew Renzullo, Member of the General Court of the 
  State of New Hampshire
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. John Young, Co-Chair, Agriculture Coalition for Immigration 
  Reform
  Oral Testimony.................................................    83
  Prepared Statement.............................................    84
Mr. Peter Gadiel, President, 9/11 Families for a Secure America
  Oral Testimony.................................................    87
  Prepared Statement.............................................    89
Mr. John Lewy, American Academy of Pediatrics
  Oral Testimony.................................................    90
  Prepared Statement.............................................    91
Mr. Steven Camarota, Director of Research, Center for Immigration 
  Studies
  Oral Testimony.................................................    94
  Prepared Statement.............................................    95

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Committee on the Judiciary...........................     4

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Charles F. Bass, a 
  Representative in Congress from the State of New Hampshire, 
  with attachment................................................   121
Letter to the House Judiciary Committee from the Honorable Jordan 
  Ulery, New Hampshire State Representative......................   197
Prepared Statement of David Lamarre-Vincent, Executive Director, 
  New Hampshire Council of Churches..............................   199
Prepared Statement of the Rt. Rev. Douglas E. Theuner, VIIth 
  Episcopal Bishop of New Hampshire, Member of the Board of 
  Directors of Lutheran Social Services of New England...........   199


REID-KENNEDY BILL'S AMNESTY: IMPACTS ON TAXPAYERS, FUNDAMENTAL FAIRNESS 
                          AND THE RULE OF LAW

                              ----------                              


                       THURSDAY, AUGUST 24, 2006

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., at the 
Hall of Representatives, The State House, 107 North Main 
Street, Concord, New Hampshire, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Committee) presiding.
    Mr. Sensenbrenner. The Committee will be in order. A quorum 
for the purpose of taking testimony is present.
    I am Congressman Jim Sensenbrenner from Wisconsin, the 
Chairman of the House Judiciary Committee. With me at the 
present time now are Congressman John Hostettler of Indiana who 
is the Chair of the Subcommittee on Immigration and Congressman 
Marty Meehan of Massachusetts.
    I would like to welcome you all to the third field hearing 
on the subject of illegal immigration. The purpose of this 
series of hearings is to examine the challenges our Nation 
faces with regard to illegal immigration and the impact the 
Reid-Kennedy bill passed by the Senate would have on the 
problem if it were to become law.
    Today's hearing will focus on the enormous fiscal costs 
illegal immigrants pose on American taxpayers as well as the 
impact of the amnesty proposal on the rule of law and the 
concept of fundamental fairness. The Reid-Kennedy amnesty 
provides an eventual path to citizenship for millions of 
individuals who broke our laws to enter and reside in the 
United States, much like the mass amnesty provided under the 
Immigration Reform and Control Act of 1986, also known as 
Simpson-Mazzoli.
    Based on the lesson learned from the 1986 amnesty, we know 
that the Senate scheme will simply result in the cottage 
industry of fraudulent documentation that will allow 
individuals to falsely claim that they have been in the country 
long enough to get amnesty. Moreover, granting another amnesty 
provides would-be illegal immigrants outside our country every 
incentive to enter illegally in the future knowing that the 
U.S. is likely to provide them amnesty at some time in the 
future.
    Illegal immigrants already account for billions of dollars 
of costs to hospitals, local schools and the full range of 
other State, local and Federal Government entities. Relying on 
data compiled by the National Research Council and the Center 
for Immigration Studies, it is conceivable that over their 
lifetimes, the 12 million illegal immigrants residing in the 
U.S. today cost American taxpayers a half trillion dollars.
    From a fiscal standpoint, illegal immigrants who are 
legalized will become eligible for a full array of State and 
Federal entitlements at an enormous cost to the government, 
especially after they become citizens. The Congressional Budget 
Office 2 days ago released a cost estimate on the Senate bill 
finding that it will cost taxpayers $127 billion over a 10-year 
period. This includes $48 billion for Social programs such as 
Social Security, food stamps, Medicaid, tax credits and a host 
of other benefits.
    And this 10-year estimate does not even begin to capture 
the long term cost of the amnesty. Amnesty immigrants will 
generally have to wait 6 years to get their green card and 
another 5 years to get citizenship. Therefore, the biggest 
fiscal drain will not occur until after the 10-year mark in the 
CBO estimate when the illegal immigrants become eligible for 
additional social benefits programs.
    The Center for Immigration Studies estimates that illegal 
immigrant households receiving amnesty under the Senate bill 
would cost taxpayers $29 billion a year. Robert Rector from the 
Heritage Foundation believes that the cost would be even higher 
once the amnesty immigrants bring their parents to the United 
States, up to an additional $50 billion a year.
    Aside from the monetary costs of amnesty, we cannot afford 
to ignore the fact that amnesty is fundamentally unfair to 
legal immigrants who play by the rules and wait in line. What 
do we say to the millions of individuals who are patiently 
waiting outside the United States for their green cards, some 
up to 22 years, when we grant amnesty to individuals who have 
lived illegally in the United States? It is simply not fair to 
give preference to those who have broken our laws and would 
encourage future law breaking by rewarding such behavior.
    Some argue that because most illegal immigrants' primary 
motivation to come to the United States is to better their 
economic conditions, that somewhat justifies their disregard 
for our laws. As a Nation founded on the concept of the rule of 
law, we cannot forsake our principles by allowing anyone to 
place themselves above the law, even when they may be appearing 
to act with noble intentions. Today we must ask whether it is 
fair to legal immigrants in the U.S. and U.S. citizens and 
consistent with our historic tradition for respect for the rule 
of law to grant amnesty once again to millions of illegal 
immigrants?
    I would like to thank the New Hampshire legislature for 
graciously providing the venue for today's hearing and look 
forward to the testimony from our panel on these important 
issues. Before I recognize a Member of the minority for opening 
remarks, I would like to remind Members, witnesses and those in 
the audience that this hearing is conducted consistent with all 
applicable rules of the U.S. House of Representatives and of 
the Judiciary Committee. Therefore, I ask witnesses to limit 
their oral remarks to 5 minutes of testimony and will recognize 
Members for 5 minutes of questions, alternating between the 
minority and majority Members seeking recognition.
    Also I have noticed that we have three more people who have 
joined us, Representative Charles Bass who represents this 
district in Congress, Representative William Delahunt from 
Massachusetts, and Representative Debbie Wasserman Schultz from 
the great State of Florida, both of whom are Members of the 
Committee. And additionally, because we do have Members of 
Congress present today who do not serve as Members of the 
Committee on the Judiciary, I would ask unanimous consent that 
they be permitted to participate in today's hearing. And 
without objection, it is so ordered.
    I would now like to recognize the gentleman from 
Massachusetts, Mr. Meehan, for an opening statement.
    [The prepared statement of Mr. Sensenbrenner follows:]

  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Meehan. Thank you, Mr. Chairman. And thank you for 
having this hearing so close to my home in Lowell. It only took 
me about 35 minutes to get here, so it worked out well.
    You know German Chancellor Otto von Bismarck once remarked 
that laws are like sausages, no one should ever see how either 
is made. Well, this is quite an unusual hearing. The House of 
Representatives has passed an immigration bill. The United 
States Senate has passed an immigration bill. From my 
perspective, we should be rolling up our sleeves and working 
out the differences between those bills.
    It is interesting because, in the past 10 years since the 
House and Senate was controlled by Republicans, there have been 
5.3 million undocumented immigrants who have come to the United 
States. Under President Bush, there have been 2 million more 
undocumented immigrants that have come to the United States. So 
I think we all see that the signs are clear that there is a 
growing problem and the American people want a solution. 
Republicans have complete control. They have the House. They 
have the Senate. They have the White House. They have the 
Supreme Court. The American people expect leadership on this 
issue.
    This is not an easy issue. It is a complex issue. The House 
has passed a bill. Ironically enough, the House-passed bill, we 
haven't had a hearing on the bill that was passed in the House. 
The American people expect the leadership of both branches to 
roll up their sleeves and find a way to report out a bill. 
Doing nothing means more illegal immigrants coming in over the 
borders. Doing nothing makes the situation worse.
    But it is interesting because if any of you read the 
Federal publication, ``How Our Laws Are Made,'' it is a great 
publication. It says that the House has a hearing, then the 
House has a hearing in the Committee, and they vote to pass a 
bill. And the Senate votes to pass a bill. And then when they 
are finished, page 42 talks about a Conference Committee. The 
Chairman has said that the Senate has not filed its paperwork 
yet for a Conference Committee. We go back September 1st. It 
will be 3 months of inaction on this because of the lack of a 
Conference Committee.
    If you look down at the material, it says the Reid-Kennedy 
bill's amnesty impact. The ``Reid-Kennedy'' bill? I don't know 
where that name came from, but it is simply not accurate. And 
if you don't believe that I think it is not accurate, I would 
point out to your own Senator from New Hampshire who made a 
statement on the floor of the United States Senate, Judd Gregg, 
on the McCain-Specter-Brownback-Graham-Hagel-Martinez-Kennedy 
immigration bill. This is what Senator Gregg said; he said, ``I 
support Senate Specter and Senator Kennedy and Senator McCain's 
position. I have come to the conclusion that we can secure our 
borders. But you cannot do it with just people and money on the 
border. There has to be a policy in place that creates an 
atmosphere that lessens the pressure for people to come across 
the border illegally, and that is what this bill attempts to 
address.''
    Now, the other body sat down. They worked hard. It wasn't 
easy. But the bill that they came up with was a bipartisan 
bill. I don't think there is anyone in the United States Senate 
or anyone in America more familiar with what happens in the 
border than Senator John McCain, the distinguished Republican 
from Arizona, because he lives with it day in and day out on 
those borders, and he worked hard in a bipartisan way to 
produce a bipartisan bill. What we ought to really be doing 
here is rolling up our sleeves and working out the differences. 
Not having hearings all across America.
    With all due respect, the time for hearings was when the 
bills were being considered. They had a hearing in San Diego. 
It had to have cost the taxpayers at least $25,000. There are 
hearings all across America. With all due respect, the American 
people want us to go do work, to get a Conference Committee 
going to work out the differences, to look at the data and make 
this country secure, get this country up to date and deal with 
the people that we need to deal with in a reasonable way.
    So, Mr. Chairman, while I love to come to Concord, New 
Hampshire, it is one of my favorite places, I think we really 
ought to get to work and get that so-called paperwork done and 
get a conference meeting. Three months of inaction, it is 
inexcusable and indefensible. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. We have five witnesses today. One is New 
Hampshire State Representative Andrew Renzullo from Hillsboro 
District 27, serving Hudson, Litchfield and Pelham. He had 
sponsored and cosponsored numerous pieces of legislation in the 
New Hampshire House concerning illegal immigration including 
H.B. 1137, a bill that would expand the definition of ``illegal 
trespass'' in New Hampshire.
    Also, Steven Camarota, who serves as director of research 
at this time for the Center for Immigration Studies. In recent 
years, Dr. Camarota has testified before Congress more than any 
other non-government expert on immigration. His articles on the 
impact of immigration have appeared in both academic journals 
and the popular press. He holds a Ph.D. from the University of 
Virginia in public policy analysis and a masters degree in 
political science from the University of Pennsylvania.
    Peter Gadiel is president of the 9/11 Families for a Secure 
America, an organization he helped found which is comprised of 
victims of families killed in the September 11th terrorist 
attacks and the survivors of those attacks. His 23-year-old son 
James, an assistant trader for Cantor Fitzgerald, worked on the 
103rd floor of the north tower of the World Trade Center. Mr. 
Gadiel has worked since early 2002 on the issue of securing 
U.S. borders against entry by terrorists. A graduate of the 
Case Western School of Law, he is a member of the New Hampshire 
Bar.
    Dr. John Lewy is testifying on behalf of the American 
Academy of Pediatrics, an organization for which he serves as 
director of Federal Affairs. Dr. Lewy is also the former 
chairman of the Department of Pediatrics at the Health Sciences 
Center of Tulane University, and he resides in Moultonboro, New 
Hampshire.
    And also here is John Young, who currently serves as the 
co-chair of the Agricultural Coalition for Immigration Reform 
and is chairman of the National Council of Agricultural 
Employees Immigration Committee. He is a director of the 
Florida East Coast Travel Service Board which recruits and 
arranges travel for workers coming from Jamaica, Mexico, and 
other Caribbean islands who plan to work under both the H2A and 
H2B foreign worker programs.
    Thank you for agreeing to testify before the Committee 
today, and will each of the witnesses please rise and raise 
your right hand to take the oath?
    [Witnesses sworn.]
    Mr. Sensenbrenner. Let the record show that all the 
witnesses answered in the affirmative.
    Without objection, all Members' opening statements can be 
placed in the record at this point. All of your written 
statements, without objection, will be placed in the record 
during your testimony.
    I would like to ask that each of you confine your oral 
testimony to 5 minutes or so. And we do have timers in front of 
each of you so that when the yellow light goes on, there is a 
minute left, and when the red light goes on, the 5 minutes is 
up.
    Representative Renzullo, why don't you be first?

   TESTIMONY OF THE HONORABLE ANDREW RENZULLO, MEMBER OF THE 
          GENERAL COURT OF THE STATE OF NEW HAMPSHIRE

    Mr. Renzullo. Thank you, Mr. Chairman, Members of the 
Committee.
    I am a New Hampshire State Representative. I am retired, 
have a part-time job where a talk with a lot of ordinary folks, 
working men and women. They are upset with illegal immigration, 
and they know the difference between legal and illegal 
immigration. They don't know what is fashionable or what is PC. 
But they're absolutely sure what is fair and what is right and 
usually know when they are being snookered. They don't want a, 
``comprehensive immigration bill.'' The 1986 bill was a 
``comprehensive bill.''
    As Scotty said on a Star Trek episode: ``Fool me once, 
shame on you. Fool me twice, shame on me.'' Secure the border. 
We will talk about what to do with the millions of illegal 
aliens already here once that is done.
    Let's look at a few issues and try to relate them to New 
Hampshire. New Hampshire has a population of 1.3 million. 
According to a 2006 report by the Pew Hispanic Center, there 
are between 10,000 and 30,000 unauthorized migrants in New 
Hampshire.
    Does illegal immigration have any effect on public 
education in New Hampshire? In 2005, New Hampshire spent $2.2 
billion on public schools. According to a report by the Pew 
Hispanic Center, in 2004, there were 13.9 million people in 
``unauthorized families,'' of which 3.1 million are citizen 
children of illegal aliens and 1.6 million are children 
illegally here.
    Using this formula and the 10,000 estimate of illegal 
residents already mentioned, that would equate to 4,350 pupils 
in New Hampshire as a result of illegal immigration. That 
equates to $46.5 million per year. Of course, these numbers are 
estimates and extrapolations, because nobody asks the questions 
or collects the data. All that is required is proof that the 
child lives within the school district. Not good when the 
primary funding source for public education in New Hampshire is 
the property tax.
    What about medical care? One of the most irritating aspects 
of illegal immigration is the drain on the medical care system. 
Data shows that illegal aliens are twice as likely to use an 
emergency room, the most cost intensive of medical facilities. 
That is understandable as Federal law requires emergency 
medical treatment. In New Hampshire, the uncompensated care 
costs was $237.4 million in 2004, of which $160 million were 
not Medicare or Medicaid underpayments. These costs are shifted 
to everyone else in New Hampshire. How much is due to those 
illegally here? No one knows. No one takes the data. In our 
politically correct society, no one even dares ask the 
question.
    And finally, there is jobs. The Nation's highest ranking 
public official says illegal aliens are coming here ``to do the 
jobs Americans won't do.'' That's not quite really accurate. 
Actually, it is jobs Americans won't do for the wages and 
working conditions being offered. How can the American worker, 
especially at the lower end of the wage scale, hope to compete 
with the 10 to 20 million illegal aliens willing to work for 
lower wages and no benefits in an underground economy?
    New Ipswich Chief of Police Garrett Chamberlain relates the 
story of his first encounter with the illegal immigration 
issue. Hidden in a van stopped for speeding were 10 illegal 
aliens from Ecuador who were doing roofing in a nearby town. He 
learned they were being paid $180 a day. Not each. All. That's 
$2.25 an hour. How can an American worker compete with that, 
and should he or she have to? And don't for a New York minute 
think that the lower labor costs were passed on to the 
consumer. And if one of the workers fell from the roof and was 
injured, who do you think would foot the medical bills other 
than the taxpayer?
    The point of the story is that the American worker is on a 
downward slide to public assistance. Not just agricultural jobs 
but good paying union jobs are being undercut. A recent report 
put out by the Pew Hispanic Center states that in the United 
States, 27 percent of the dry wall and tile installers, 22 
percent of the cement masons and finishers, 21 percent of the 
roofers and 19 percent of the brick layers are here illegally.
    In closing, illegal immigration is one of those subliminal 
gut issues. It is not the type of thing that shows up in polls. 
Ask a New Hampshire citizen what is the most important issue 
facing the State, and they will probably say taxes or health 
care. But with God as my witness, I have yet to meet an 
ordinary person who is not upset about the disregard of our 
border by the millions of people and the lack of enforcement of 
our laws by our own government. Thank you.
    [The prepared statement of Mr. Renzullo follows:]

          Prepared Statement of the Honorable Andrew Renzullo

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Sensenbrenner. Thank you, Representative Renzullo.
    Mr. Young, why don't you go next.

 TESTIMONY OF JOHN YOUNG, CO-CHAIR, AGRICULTURE COALITION FOR 
                       IMMIGRATION REFORM

    Mr. Young. Mr. Chairman, I appreciate the opportunity to 
testify today. I am a fourth generation apple farmer from New 
England and have been raising apples for 44 years here in New 
Hampshire. I am also co-chair of the Agriculture Coalition for 
Immigration Reform. And today I am also testifying on behalf of 
the National Council of Ag Employers, the U.S. Chamber of 
Commerce, and the New England Apple Council.
    The title of today's hearing should be: ``How will illegal 
immigrants impact the costs of health care, local education and 
social services without passage of comprehensive immigration 
reform legislation?''
    Certainly, illegal immigration has negative consequences, 
yet a fair and complete treatment of the issue would consider 
contributions of immigrants and most importantly the impacts of 
more delay or even failure yet again to enact a truly 
comprehensive immigration reform bill.
    I say this because for decades I have been closely involved 
with the immigration issue. I am intimately familiar with the 
existing temporary foreign worker programs. I worked on the 
Immigration Reform and Control Act of 1986, and I can tell you 
that the chief failure of that legislation was not the 
legalization program but rather the lack of a long-term 
solution in the form of expanded temporary worker programs.
    I wish to go on record by saying that, year after year, we 
have heard excuse after excuse for congressional inaction. Had 
we solved this problem in a truly comprehensive way in 1986 or 
in 1994 or 1996 or in 1998, we would probably not be here today 
talking about numbers like 12 million people, numbers which 
reach nearly 5 percent of the workforce. And we would not have 
the daily news reporting outright shortages of farm labor 
threatening the existence of agriculture industries coast to 
coast, from oranges in Florida to tomatoes in California to 
dairies right here in New England.
    The core elements of a comprehensive approach must be, one, 
rational border and interior enforcement; two, expanded and 
improved legal channels for temporary workers to meet the needs 
of the American economy; and, three, a realistic approach for 
addressing the undocumented. While we may quibble about some of 
the elements of the Senate-passed bill, it is comprehensive in 
scope, and it does address all of these elements.
    Mr. Chairman, since this hearing is looking at the cost of 
immigrants, I have attached the analysis of the Congressional 
Budget Office's report on cost prepared by the Essential Worker 
Coalition, and I ask that it be included in the record.
    Mr. Sensenbrenner. Without objection.
    Mr. Young. As well as the experience of the New England 
Apple Council with the existing H2A and H2B programs as 
Attachment I.
    Mr. Sensenbrenner. Without objection, as well.
    Mr. Young. The current guest worker programs have deep 
flaws that limit their use. H2A is bureaucratic, unresponsive, 
expensive and prone to litigation. H2B is hamstrung by an 
artificially low cap in admissions. Neither accommodates 
employers who need workers year round, but instead are 
restricted to seasonal employment. If you are an employer who 
has year round needs for general labor which cannot be 
successfully filled with U.S. workers, there is no program for 
you.
    Our agricultural economy and much of our service economy is 
fueled by undocumented workers. We need a comprehensive 
immigration policy which will allow these workers to come 
forward, undergo background checks and be allowed access to 
jobs legally. They will pay taxes, but more importantly, they 
will help create many jobs upstream and downstream of the 
production, for services and goods which will allow these 
businesses to expand. In agriculture, as an example, each farm 
worker job sustains three jobs in the surrounding economy.
    We believe the mess which is America's current immigration 
system can only be fixed through a comprehensive approach. 
Comprehensive immigration reform must deal with each aspect of 
the problem. It must provide a workable program for 
agriculture, such as a reformed H2A, it must address the 
artificially low H2B cap. It must create a new temporary worker 
problem that is accessible to the industries that fall through 
the cracks of the current limited program framework.
    Comprehensive reform must also address enforcement. 
Employers can also be part of this solution. Employers are not 
opposed to an expanded employment eligibility verification 
system, but it must be accurate, responsive, easily accessible 
and hold the employer harmless for any system errors. Most 
importantly, expanded employer responsibilities in this area 
must be coupled with--and I say coupled with and not 
implemented in advance of means to an access to a legal 
workforce.
    Without comprehensive bipartisan immigration reform, 
without a comprehensive, bipartisan immigration reform 
approach, legislative efforts will fail and we will continue to 
suffer the consequences. We will again have walked away from 
the issue and a year from now, based on the recently released 
statistics, there will be 300,000 more undocumented aliens here 
in the United States. The time for action is now. I urge the 
Members of the House to return to Washington and work with the 
Senate to pass a comprehensive bipartisan immigration bill and 
do it during this session of Congress. Thank you.
    [The prepared statement of Mr. Young follows:]

                    Prepared Statement of John Young

    Mr. Chairman,
    I appreciate the opportunity to testify today. I'm a fourth 
generation apple farmer from New England, and have been raising apples 
for 44 years here in New Hampshire. I am also co-chair of the 
Agriculture Coalition for Immigration Reform (ACIR). Today I am also 
testifying on behalf of the National Council of Agricultural Employers, 
the U.S. Chamber of Commerce, and the New England Apple Council (NEAC).
    The title of today's hearing is ``The Reid-Kennedy Bills Amnesty; 
Impacts on Taxpayers, Fundamental Fairness and the Rule of Law''. In my 
opinion the fairer question is ``How will illegal immigrants impact the 
costs of health care, local education, and social services WITHOUT 
passage of comprehensive immigration reform legislation?'' Certainly 
illegal immigration has negative consequences. Yet a fair and complete 
treatment of the issue would consider contributions of immigrants and--
most importantly--the impacts of more delay or even failure, yet again, 
to enact a truly comprehensive immigration reform bill.
    I say this because for decades I have been closely involved in the 
immigration issue, and am intimately familiar with the existing 
temporary foreign worker programs. I worked on the Immigration Reform 
and Control Act of 1986, and can tell you that the chief failure of 
that legislation was NOT the legalization program, but rather, the lack 
of a long-term solution in the form of expanded temporary worker 
programs. I have been at the table ever since, seeking reforms to the 
existing temporary worker programs through the 1990's up to the 
present.
    I wish to go on record by saying that year after year, we have 
heard excuse after excuse for Congressional inaction. Had we solved 
this problem in a truly comprehensive way in 1986, or in 1994, or 1996, 
1998, we would probably not be here talking about numbers like 12 
million people, numbers like nearly 5% of the workforce! And, we would 
not have the daily news reporting outright shortages of farm labor 
threatening the very existence of agricultural industries from coast to 
coast, from oranges in Florida to tomatoes in California to dairies 
right here in New England.
    The core elements of a comprehensive approach must be (1) rational 
border and interior enforcement; (2) expanded and improved legal 
channels for temporary workers to meet the needs of the American 
economy; and, (3) a realistic approach for addressing the undocumented. 
While we may quibble about some of the elements of the Senate-passed 
bill, it is comprehensive in scope. It does address all these elements.
    Along with my testimony, I offer the experience of the New England 
Apple Council with the existing H2A and H2B programs (see Attachment 
I). The current programs have deep flaws that limit their use. H2A is 
bureaucratic, unresponsive, expensive, and prone to litigation. H2B is 
hamstrung by an artificially low cap on admissions. Neither program 
accommodates employers who need workers year-round, but instead are 
restricted to seasonal employment. If you are an employer who has year-
round needs for general labor which cannot be successfully filled with 
U.S. workers, there is no program for you.
    Meanwhile our agricultural economy and much of our service economy 
is fueled by undocumented workers. We need a comprehensive immigration 
policy which will allow these workers to come forward, undergo 
background checks, and be allowed access to jobs legally. They will pay 
taxes, but more importantly they will help create many jobs upstream 
and downstream of the production, for services and goods, which will 
allow those businesses to expand. In agriculture, as an example, each 
farmworker job sustains three jobs in the surrounding economy. We are 
talking about sustaining and creating job opportunities for Americans.
    We believe that the mess which is America's current immigration 
system can only be fixed through a comprehensive approach. 
Comprehensive immigration reform must deal with each aspect of the 
problem. It must provide a workable program for agriculture, such as a 
reformed H2A. It must address the artificially low H2B cap. It must 
create a new temporary worker program that is accessible to the 
industries that fall through the cracks of the current limited program 
framework.
    Comprehensive reform must also address enforcement. I believe that 
every American wants to see a well-managed border. Employers can also 
be part of the solution. Employers are not opposed to an expanded 
employment eligibility verification system. But it must be accurate, 
responsive, easily accessible, and it must hold the employer harmless 
for any system errors. Most importantly, expanded employer 
responsibilities in this area must be coupled with--not implemented in 
advance of--means to access a legal workforce.
    The problem of those who are in this Country without documents must 
be dealt with at the same time that we secure our borders. I like to 
think of our problem, of illegal immigration, as a dam that has been 
breached. When you have a hole in a dam the first thing you do is 
relieve the pressure. If we provide better legal channels that are in 
our own economic interest, and we find a way for those here 
undocumented to become legal, we will have released the pressure. We 
will then be able to go about fixing our dam. A recent study by the 
National Foundation for American Policy documents this by looking at 
the positive effect the 1950's-era Bracero program had at reducing 
illegal immigration.
    Without a comprehensive, bipartisan immigration reform approach, 
legislative efforts will fail and we will continue to suffer the 
consequences. We will again have walked away from the issue. And a year 
from, now based upon recently released statistics, there will be 
300,000 more undocumented aliens here in the U.S. The time for 
congressional action is NOW. I urge House Members to return to 
Washington to work with the Senate to pass a comprehensive bipartisan 
immigration reform bill.
    In conclusion I want to thank the Committee for allowing me to 
testify today.

                               __________

                              ATTACHMENT I

                The New England Apple Council Experience

        with the Existing H2A and H2B Temporary Worker Programs

                              Submitted by

                  John Young, Past Executive Director

    The New England Apple Council includes growers in all six New 
England States, who raise various agricultural products. Many of our 
growers, including me, have used the H2A program since the early 
1960's. Our members started using Legal foreign workers in 1943. Mr. 
Chairman it has been almost 11 years since I last testified before this 
committee. In that time the guest worker program known as H2A has 
become nearly unusable. The approximately 190 members of NEAC have 
decreased their usage of H2A by 53%. Although employment of H2A workers 
has decreased, overall employment at our members has remained stable.
    Where have the additional workers come from? Many were referred by 
the Employment Service without verification of their legal authority to 
work in the U.S. Growers took the Employment Service's word that all 
referrals were qualified. Part of being qualified is being work 
authorized. Later growers were notified that many workers' social 
security numbers did not match the names reported.
    A referral of 125 workers approximately 13 years ago began the New 
England Apple Councils change from a legal (H2A) workforce to a heavily 
undocumented workforce. Growers were not in a position to use the pilot 
verification system because H2A workers are not included in the Social 
Security system, and would all come back as no-match. Employers were 
also afraid to use the system for only U.S. workers for fear of being 
charged with discrimination in hiring by the Office of Special Counsel 
of the U.S. Department of Labor.
    I believe H2A is broken. It is unresponsive, burdensome in 
paperwork, excessively costly, and I as an Association Director can not 
guarantee workers will be at the farm when they are needed.
    The government's approval process has become less dependable since 
9/11. Prior to 9/11 we would expect petitions for workers to be 
approved within two weeks. Today many are not back in even a month. For 
our H2A jobs we are asking to have unnamed petitions approved. The 
background checks of workers are done at the port of entry, and there 
is no function required at Citizenship and Immigration Services (USCIS) 
other than stamping the petition approved.
    We also have employers who use H2B workers. These are seasonal 
workers in hotels, restaurants, golf courses, landscaping, fisheries 
and ski areas. This program is also broken. An employer must start 120 
days before workers are needed. With good luck they receive an approval 
from the Department of Labor 30-60 days before need; this is after an 
attempt to find local U.S. employees to do the job failed. This 
approval must then be sent to USCIS with the regular fees plus an extra 
$1,000 for expedited processing. Without premium processing it can take 
as long as 5 months for approval. We recently had one that took 5 
months and a day, to approve an unnamed petition. There are other 
problems with the H2B program. It is capped at 66,000 visas per year. 
There was a temporary fix to exempt most returning workers from 
counting against the cap, but it will expire on October 1st. This will 
leave many New Hampshire businesses without workers next spring.

    Mr. Sensenbrenner. Thank you, Mr. Young.
    The Chair will advise the Members of the audience that the 
rules of the House specifically prohibit expressions in support 
of or in opposition to any statements that are made by 
witnesses or by Members of the Committee. And the Chair will 
enforce that rule.
    This is a legislative hearing that is conducted pursuant to 
the rules of the United States House of Representatives. I know 
that there are strongly held views on both sides of this issue. 
I think it is important that this hearing be conducted 
according to rules because what someone agrees with in 1 
minute, someone will disagree with when somebody else comes to 
speak. And the only way that we are able to conduct this 
hearing according to the rules is that everybody respects the 
statements that are made by the witnesses and by the Members of 
the Committee, whether they happen to agree with those 
statements or disagree with those statements.
    Mr. Gadiel, the floor is yours.

             TESTIMONY OF PETER GADIEL, PRESIDENT, 
               9/11 FAMILIES FOR A SECURE AMERICA

    Mr. Gadiel. Thank you, Mr. Chairman, and thank you for the 
opportunity to speak today.
    Since independence, one of America's most treasured ideals 
has been that of equality under law. In practice, we have often 
failed to achieve that ideal, but with the civil rights 
revolution, the clear trend of our 230 years of existence has 
been a progress toward making that goal a reality.
    Now comes the U.S. Senate with S. 2611, a bill that will 
reverse our progressive course by rejecting the concept of 
equality before the law. This would be done in order to create 
a special class of millions and offer them special treatment 
and privileges that have never before in our history been 
offered to any single citizen let alone an immense group of 
them.
    Who are the people the Senate has selected for special 
privileges? Not combat veterans of our military services; not 
the elderly people who have contributed to our Nation for many 
decades; not Americans who have made contributions in medicine 
or science. The elite chosen by the Senate are illegal aliens, 
citizens of other nations who, like thieves in the night, 
sneaked across our borders illegally. Aliens who obtained visas 
to visit our country with the stated promise to return home on 
the expiration of their visas and who, by violating that 
promise, revealed themselves to be liars. The privileged class 
chosen by the Senate consists entirely of criminals, and not 
even American criminals but criminal aliens.
    S. 2611 would forgive illegals for immigrations crimes, tax 
evasion, identity fraud, and other crimes and then goes far 
beyond that to grant them one of the greatest gifts our 
government can bestow: citizenship, a benefit that the law 
breakers will be able in turn to pass on to their descendants.
    Senators object to calling this amnesty, and on this one 
single point, they are correct. A true amnesty would merely 
restore the criminals to the same position they occupied before 
they committed their crimes: the right to apply for immigration 
like anyone else in the world. But S. 2611 goes on and rewards 
the acts of this specified criminal class. And to conceal the 
nature of its discriminatory and regressive plan, the Senate 
calls this idea comprehensive or a path to legalization. But to 
everyone else, it is discrimination, a violation of fundamental 
fairness and abandonment of the rule of law as we have known 
it.
    The law breaking illegal aliens will be the beneficiaries 
of S. 2611, and it is American citizens who will pay the costs, 
both financial and social. Tens of thousands of American 
workers who have lost their jobs to illegal aliens who will 
work for a pittance and live 40 and 50 to a house. It is 
fundamentally unfair to these Americans who will see their law 
breaking competitors rewarded with citizenship. Fundamentally 
unfair to make permanent the conditions that deprive these 
American workers the ability to earn a living wage. Many 
Americans have been killed or injured in auto accidents or 
crimes committed by illegals who violate our motor vehicle and 
criminal laws as readily as they violate our immigration laws. 
And I might add today they show a disregard for even common 
civil proprieties of this hearing.
    Since every illegal is by definition a person whose true 
identity has never been documented, the perpetrators in many 
cases just disappear, is it not grossly unfair to the American 
victims and their families that illegals who have killed and 
injured Americans will be able simply by adopting a new 
identity to take advantage of a path to citizenship?
    The health care costs of Americans are inflated because 
hospitals are overrun by illegals who utilize their services. 
Is it not fundamentally unfair to Americans to increase our 
population by perhaps 60 million who will inevitably increase 
those costs?
    The open borders lobby relentlessly speaks of the romantic 
past, but the world is not the place it was in 1870 or 1900. 
Many, many, many conditions have changed and the most important 
one of those changes is that our government no longer seems to 
care who gets into our country. Let me provide a personal 
perspective on that point.
    My father was born in Germany in 1906. He was only part 
Jewish, but that and his family's anti-Nazi activities were 
sufficient for the Hitler government to target him for death. 
In 1940, he arrived in this country officially classified as a 
``stateless person'' and was allowed entry, but his entry as a 
refugee was conditional. He used to tell me that despite his 
Jewish blood and his work in opposing Nazis, before he was 
entitled to remain in the U.S., the FBI investigated him 
carefully to make sure he wasn't a German agent. He said they 
practically looked under my fillings to make sure I wasn't a 
Germany agent.
    Yet my father was pleased that the FBI examined him so 
closely. I didn't want German agents in the U.S. anymore than 
FDR did. I wanted to be safe. My father was proud that he 
passed the test, and he felt safe in this country because he 
knew his government was carefully screening every single person 
who wanted to immigrate to this wonderful country.
    How sadly ironic it is that my son, his grandson, was 
murdered on 9/11 because the government of this country 
abandoned the practice of carefully examining those who wish to 
come to our country.
    S. 2611--make no doubt--will result in many more millions 
of criminal aliens from all parts of the earth winning the 
right to stay in the United States of America without any 
effective investigation of their possible violent or terrorist 
backgrounds. And this is the worst of all the many crimes 
against fairness, justice and morality S. 2611 will produce: It 
will make our Nation even more vulnerable to attack by hostile 
foreign powers infiltrating agents into the USA as ordinary 
illegal aliens.
    I implore the Members of this Committee to remember that it 
was negligence on the part of U.S. Government officials that 
allowed the terrorists of 9/11 and tens of thousands of 
ordinary street criminals to destroy the lives of innocent 
Americans. S. 2611 would perpetuate this madness. Illegal 
immigration is not a victimless crime----
    Mr. Sensenbrenner. The gentleman's time has expired.
    Dr. Lewy? 
    Mr. Delahunt. Mr. Chairman, I ask unanimous consent that 
the gentleman be allowed to finish his statement.
    Mr. Sensenbrenner. Without objection.
    Mr. Gadiel. I appreciate that very much. Amnesty for 
illegals means Americans will die. It is up to the Members of 
this House to save Americans from this assault by a Senate that 
is deaf to the wishes of the vast majority of this country's 
citizens. Thank you very much.
    [The prepared statement of Mr. Gadiel follows:]

                   Prepared Statement of Peter Gadiel

    Since Independence, one of American's most treasured ideals has 
been that of equality under the law. In practice we have often failed 
to achieve that ideal, but the clear trend during two centuries has 
been of progress toward making the goal a reality. Now comes the US 
Senate with S.2611, a bill which would reverse our progressive course 
by rejecting the concept of equality before the law. This would be done 
in order to create a special class of millions and offer them special 
treatment and privileges that have never in our history been offered to 
any single citizen, let alone an immense group of them.
    Who are the people the Senate has selected for special privileges? 
Not combat veterans of our military services; not elderly people who 
have contributed to our Nation for many decades, not Americans who have 
made unique contributions in the medicine or science.
    The elite chosen by the Senate are illegal aliens. Citizens of 
other nations who, like thieves in the night, sneaked across our 
borders illegally. Aliens who obtained visas to visit our country with 
the stated promise to return home on the expiration of their visas and 
who, by violating those promises, revealed themselves as liars. The 
privileged class chosen by the Senate consists entirely of criminals. 
And not even American criminals, but criminal aliens.
    S. 2611 would forgive illegals for their immigration crimes, tax 
evasion, identity fraud and other crimes, and then goes far beyond that 
to grant them one of the greatest gifts our government can bestow: 
citizenship, a benefit that the lawbreakers will in turn be able to 
pass on to their descendants. Senators object to calling this 
``amnesty,'' and on this one point they are correct. A true ``amnesty'' 
would merely restore the criminals to the same position they occupied 
before they committed their crimes: a clean slate and the same right to 
stand in line with the rest of the world to apply for immigration. 
However, S2611 rewards the criminal acts of this chosen class of 
lawbreakers. To conceal the nature of its discriminatory and regressive 
plan the Senate calls this idea ``a path to legalization,'' but to 
everyone else it's discrimination; a violation of fundamental fairness.
    While lawbreaking aliens will be the beneficiaries of S2611, it is 
American citizens who will pay all the costs, social and financial.
    Tens of thousands of taxpaying American workers in the building 
trades, hospitality industry, agriculture, service industry, 
manufacturing, high tech . . . the full spectrum of this country's 
private sector have lost their jobs or have been forced to take lower 
wages because of illegal aliens who will work for a pittance and live 
forty and fifty to a house. It is fundamentally unfair to these 
Americans that their lawbreaking competitors will be rewarded with 
citizenship; fundamentally unfair to make permanent the conditions that 
have deprived these American workers of the ability to earn a living 
wage.
    Illegal aliens, violating our criminal laws and motor vehicle laws 
with the same contempt they show for our immigration laws, have killed 
or injured many thousands of Americans in street crimes or highway 
accidents. Since every illegal is by definition a person whose true 
identity has never been documented, the perpetrators often just 
disappear. Is it not grossly unfair to these American victims and their 
families that the illegals who are responsible will be able, simply by 
adopting a new identity, to take advantage of the ``path to 
citizenship?''
    The health care costs of all Americans are inflated because 
hospitals are overwhelmed with illegals getting ``free'' health care. 
Is it not fundamentally unfair to Americans to permanently add perhaps 
60 million people who will inevitably increase these costs?
    Many Americans who have needed emergency care but have lost access 
to nearby hospitals which have been forced to close by the cost of 
caring for illegals who abuse the ``free'' care offered by emergency 
rooms. Is it not fundamentally unfair to Americans that the very same 
people who caused these denials of service will be rewarded with the 
Senate's ``path to citizenship?''
    Many Americans of modest means have their entire life earnings 
invested in their homes and many have seen their homes rendered almost 
worthless because nearby houses were converted by absentee owners into 
dormitories for dozens of illegals. Is it not fundamentally unfair to 
these Americans to reward the illegals (and the landlords) who have 
robbed them of the work of a lifetime?
    The open borders lobby relentlessly speaks of the romantic past. 
But the world is not the place it was in 1870, 1900. Many, many 
conditions have changed. Most important among those changes is that our 
government no longer seems to care who gets into our country. Let me 
provide a personal perspective on that point.
    My father was born in Germany in 1906. He was only part Jewish but 
that and his family's anti-Nazi activities were sufficient for the 
Hitler government to target him for death. In 1940 he arrived in the 
United States officially classified as a ``stateless person.'' However, 
his status as a refugee was conditional, with permanent status only 
being granted after a complete investigation. He used to tell me that 
before he was permitted to remain in the US the FBI ``practically 
looked under the fillings in my teeth to make sure that I wasn't a 
German agent.'' Yet, my father said he was pleased that the FBI 
examined him so closely. ``I didn't want German agents in the US 
anymore than FDR did. I wanted to be safe.'' My father was proud that 
he passed the test, and felt safe because he knew his government was 
carefully screening every person who wanted to immigrate to this 
wonderful country.
    How sadly ironic is it that his grandson, my son, was murdered on 
9/11/2001 because the government of the United States had abandoned the 
practice of carefully examining those who wish to come to our country, 
and S.2611 will result in many more millions of criminal aliens from 
all parts of the earth winning the right to stay in the USA without any 
effective investigation of their possible violent or terrorist 
backgrounds.
    And this is the worst all the many crimes against fundamental 
fairness that S.2611 will produce: it will make our Nation even more 
vulnerable to attack by hostile foreign powers infiltrating agents into 
the USA as ``ordinary'' illegal aliens.
    I implore members of this Committee to remember that it was 
negligence on the part of US government officials that allowed the 
terrorists of 9/11 and tens of thousands of ``ordinary'' street 
criminals to destroy the lives of innocent Americans. S.2611 will 
perpetuate this madness.
    Amnesty for illegals means Americans will die.
    It is up to the Members of this House to save Americans from this 
assault by a Senate that is deaf to the wishes of the vast majority of 
our citizens.

    Mr. Sensenbrenner. Thank you, Mr. Gadiel.
    Dr. Lewy now.

                    TESTIMONY OF JOHN LEWY, 
                 AMERICAN ACADEMY OF PEDIATRICS

    Dr. Lewy. Thank you. I am very pleased to meet with you 
this morning. I am a pediatrician, and I am the immediate past 
chair of the American Academy of Pediatrics Committee on 
Federal Government affairs. I was the chairman of the 
Department of Pediatrics at Tulane Medical School from 1978 
until my retirement in 2004, and I now live in Moultonboro, New 
Hampshire. I would like to address the issue of how illegal 
aliens impact local taxpayers in terms of cost and health care.
    The American Academy of Pediatrics is concerned about the 
children who are the innocent victims of illegal immigration. 
All children need care in our communities; comprehensive, 
coordinated and continuous care in a medical home, meaning in a 
doctor's practice, is cost effective and provides the best 
quality of care.
    Unfortunately, the rules requiring Medicaid recipients to 
document citizenship and identity will harm the health of the 
children in our country and their communities. Let me elaborate 
and explain. About one-third of the Nation's low-income 
uninsured children live in immigrant families. These children 
are less likely to gain access to health care services. When 
they become ill, they are more likely to use emergency rooms 
which are far more expensive than medical homes. They also 
delay care far more and more often therefore require 
hospitalization.
    Immigrant children have more depression, more anxiety, more 
linguistic problems, and often were exposed to traumatic events 
such as war and persecution. They are also less likely to be 
immunized. This increases community risk. An example occurred 
with measles which was largely eliminated in our country by the 
year 2000. Last year, a 17-year-old unvaccinated girl from 
Indiana visited an orphanage in Romania where she picked up the 
measles virus. When she returned home, she attended a church 
gathering where there were 500 people including a number of 
unvaccinated children; 34 people developed the illness and 
three required hospitalization, one quite severely ill.
    A particular concern is the interpretation of this 
citizenship identification and documentation requirements. An 
extreme problem can be found in the denial of eligibility for 
infants born in the United States, and therefore citizens, to 
undocumented mothers and in families who can't find their 
documentation, and a strong example of that is families who 
lost all documentation in Katrina.
    We would hope that, one, the deemed sponsor rule would be 
changed so that children are not denied access to insurance; 
secondly, that newborns would be presumed eligible for Medicaid 
coverage; three, that payment policies would be designed to 
encourage a medical home for all children who reside in the 
United States; and fourth, that State outreach efforts be 
designed to enroll eligible children in the Medicaid or the 
State child health insurance program.
    In closing, then, I would hope that the Congress keeps in 
mind that all children living in our country need to receive 
quality care. This is the most cost-effective way to provide it 
in a medical home. We must not compromise children's health 
while we restructure immigration law. Thank you.
    [The prepared statement of Mr. Lewy follows:]

                  Prepared Statement of Dr. John Lewy

    The American Academy of Pediatrics (AAP) is an organization of 
60,000 primary care pediatricians, pediatric medical subspecialists, 
and pediatric surgical specialists, who are deeply committed to 
protecting the health of children, adolescents and young adults in the 
United States. Our testimony in today's Oversight Hearing, ``The Reid-
Kennedy Bill's Amnesty: Impacts on Taxpayers, Fundamental Fairness and 
the Rule of Law,'' will focus on children, the innocent victims of 
illegal immigration.
    Children, whether they are undocumented or not, need care in our 
communities. Most immigrant children's care should be preventive, but 
too often, that care is foregone. Comprehensive, coordinated, and 
continuous health services provided within a medical home should be 
integral to all efforts on behalf of immigrant children. Children need 
and deserve access to care, and communities benefit when they receive 
it.
    Unfortunately, immigrant children often do not receive the care 
they need because of federal, state and local laws limiting payment for 
their care, or a generalized belief that if children seek care, their 
families or loved ones may become the target of law enforcement.
    AAP believes that barriers to access, such as the recent 
promulgation of rules by the Centers for Medicare and Medicaid Services 
requiring Medicaid recipients to document citizenship and 
identification, will harm the health of the children in our country and 
the communities they live in.

                           IMMIGRANT CHILDREN

    One in every five American children is a member of an immigrant 
family. About one-third of the nation's low-income, uninsured children 
live in immigrant families. Children of immigrants, often racial or 
ethnic minorities, experience significant health disparities. These 
disparities arise because of complex and often poorly understood 
factors, many of which are worsened by the circumstances of their 
lives. Although these children have similar challenges with regard to 
poverty, housing, and food, significant physical, mental, and social 
health issues may exist that are unique to each individual child.
    Children of immigrants are more likely to be uninsured and less 
likely to gain access to health care services than children in native 
families. Socioeconomic, financial, geographic, linguistic, legal, 
cultural, and medical barriers often limit these families from 
accessing even basic health care services. Once care is available, 
communication barriers often result in immigrant children receiving 
lower-quality services. Many immigrant families also have varied 
immigration statuses that confer different legal rights and affect the 
extent to which these families are eligible for public programs such as 
SCHIP, the State Children's Health Insurance Program, and Medicaid. 
Thus, the immigration status of children in the same family may differ. 
As a result, a foreign-born child may be ineligible for insurance 
coverage, while his or her younger, U.S.-born sibling is eligible as a 
native citizen.
    Each immigrant's experience is unique and complex but certain 
overarching health issues are common in caring for immigrant families. 
Immigration imposes unique stresses on children and families, 
including:

        <bullet>  depression, grief, or anxiety associated with 
        migration and acculturation;

        <bullet>  separation from support systems;

        <bullet>  inadequate language skills in a society that is not 
        tolerant of linguistic differences;

        <bullet>  disparities in social, professional, and economic 
        status between the country of origin and the United States; and

        <bullet>  traumatic events, such as war or persecution, that 
        may have occurred in their native country.

    The health of immigrant children not only impacts the child, it 
impacts the entire community. Preventive care commonly provided to 
children born in the United States will often not be available to 
children of immigrants. Left untreated, the health issues caused by 
this lack of prevention cause immigrant families to seek care for their 
children in emergency settings. Children commonly present with worse 
health status in the emergency room than if they had received 
preventive care.
    Beyond the health status of the child, communities should also care 
about the health of the children who live in them because immigrant 
children may have diseases that are rarely diagnosed in the United 
States. Left untreated, these diseases may be passed on to the 
communities in which immigrant children reside. In addition, many 
foreign-born children have not been immunized adequately or lack 
documents verifying their immunization status. Dental problems are also 
common among immigrant children.
    The measles vaccine is an example of the importance of prevention 
for communities. Measles is a highly infectious viral disease that can 
cause a rash, fever, diarrhea and, in severe cases, pneumonia, 
encephalitis and even death. Worldwide, it infects some 30 million 
people and causes more than 450,000 deaths a year. In the United 
States, measles was once a common childhood disease, but it had been 
largely eliminated by 2000. Nevertheless, an outbreak of measles 
occurred in Indiana last year. A 17-year-old unvaccinated girl who 
visited an orphanage in Romania on a church mission picked up the virus 
there.
    When the girl returned, she attended a gathering of some 500 church 
members that included many other unvaccinated children. By the time the 
outbreak had run its course, 34 people had become ill. Three were 
hospitalized, including one with life-threatening complications. 
Clearly, communities should care about the health of those who reside 
in them.

            FEDERAL AND STATE HEALTH PROGRAMS FOR IMMIGRANTS

    One of the most important risk factors for lack of health coverage 
is a child's family immigration status. Some children in the United 
States are ineligible for Medicaid and SCHIP because of immigrant 
eligibility restrictions. Many others are eligible but not enrolled 
because their families encounter language barriers to enrollment, are 
confused about program rules and eligibility status, or are worried 
about repercussions if they use public benefits.
    The vast majority of immigrant children meet the income 
requirements for eligibility for Medicaid or the State Children's 
Health Insurance Program (SCHIP), but for various reasons are not 
enrolled. Medicaid and SCHIP are not available to most immigrant 
children because of eligibility restrictions imposed by various federal 
laws. Two examples include the sponsor deeming rule and the recently 
promulgated citizenship and identification documentation requirements.
    While qualified immigrants can become eligible to receive federal 
benefits after five years of U.S. residency, secondary rules often 
interfere with their access to benefits, such as the ``sponsor 
deeming'' rule. Current law requires that people who immigrate through 
family ``sponsors'' may have their sponsors' income counted in 
determining eligibility. This rule applies even if the sponsor lives in 
a separate household and does not actually contribute to the 
immigrant's financial support. Sponsor deeming has made a majority of 
low-income immigrants ineligible for benefits, even after five years 
have passed. Moreover, if an immigrant uses certain benefits, including 
Medicaid and SCHIP, his or her sponsor can be required to repay the 
government for the value of the benefits used until the immigrant 
becomes a citizen or has had approximately 10 years of employment in 
the United States. Together, these requirements impose significant 
barriers to securing health coverage, even when immigrant children are 
otherwise eligible.
    Immigrant children who used to qualify based on certifications as 
to their immigrant status now may not qualify because of changes 
contained in the Deficit Reduction Act. These changes require that 
Medicaid applicants, who would otherwise qualify, must now also provide 
documentation such as a passport or original birth certificate to 
verify their citizenship status and identity. While designed to weed 
out fraud and abuse from the system, AAP has already received 
information that the rule has limited access to care for poor children 
who would otherwise qualify for Medicaid. An extreme example of this 
can be found in new rules denying coverage for children born in the 
United States to undocumented mothers.
    According to these new rules, newborns may not be eligible for 
Medicaid until strenuous documentation requirements have been 
satisfied. Hospital records may not be used in most cases to prove that 
children are citizens, even though the child was born in the hospital 
providing care and are, by definition, citizens. Thus, care for some 
citizen newborns may not be paid for by Medicaid because paperwork 
documenting their status is not yet available. Pediatricians treating 
these citizen newborns whether they are low-birthweight, have post-
partum complications, or simply need well-baby care, may not be paid. 
This result is completely unnecessary because the child will eventually 
qualify for Medicaid benefits as a result of where he or she was born.

                            RECOMMENDATIONS

    Lawmakers should be aware of and sensitive to the onerous 
financial, educational, geographic, linguistic, and cultural barriers 
that interfere with achieving optimal health status for immigrant 
children. This awareness should translate into:

        <bullet>  CMS confirming with states that newborns are presumed 
        eligible for Medicaid coverage. Paperwork should not delay 
        payment for services provided to resident newborns.

        <bullet>  The deemed sponsor rule should be changed so that 
        immigrant children are not denied access to insurance, and by 
        extension, quality health care.

        <bullet>  The pooling of community resources to address unpaid-
        for care provided by pediatricians to immigrant children. 
        Undocumented children receive care from pediatricians. 
        Communities benefit from the provision of this care. 
        Communities should not expect pediatricians alone to provide 
        the resources needed to furnish this care.

        <bullet>  Encouraging payment policies to support the 
        establishment of a medical home for all children residing in 
        the United States. Comprehensive, coordinated, and continuous 
        health services provided within a medical home should be 
        integral to all efforts on behalf of immigrant children. In 
        addition, the establishment of a medical home should be a 
        ``scorable element'' for children, as the medical home will 
        have the effect of providing care for children away from the 
        emergency room in many instances.

        <bullet>  Outreach efforts for children who are potentially 
        eligible for Medicaid and SCHIP but not enrolled, simplified 
        enrollment for both programs, and state funding for those who 
        are not eligible for Medicaid or SCHIP. The Medicaid 
        reciprocity model, which allows Medicaid recipients in one 
        state to qualify for services in another state without 
        reestablishing eligibility, is an example of a model that 
        enables underserved families to access health benefits more 
        easily.

    In closing, the American Academy of Pediatrics seeks to ensure that 
Congress keeps in mind the children we care for as it considers 
restructuring immigration law. Pediatricians and a host of other health 
professionals provide care to children throughout the United States. We 
must not compromise children's health in the name of reform.

    Mr. Sensenbrenner. Thank you.
    Mr. Camarota.

TESTIMONY OF STEVEN CAMAROTA, DIRECTOR OF RESEARCH, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Camarota. Mr. Chairman, and Members of the Committee, 
my name is Steven Camarota from the Center for Immigration 
Studies and I want to thank you for inviting me to testify.
    When it comes to immigrants and public coffers, there is 
general agreement that their fiscal impact depends largely on 
the education level of the immigrant in question. Immigrants 
who come with a lot of education tend to pay much more in taxes 
than they use in services, while those with little education 
tend, who have low incomes, pay relatively little in taxes and 
often use a good deal in public services. In the case of 
illegal aliens, services are often received on behalf of their 
U.S. born children who are currently awarded U.S. Citizenship.
    It is critically important to understand that the fiscal 
drain from less educated immigrants is not because they came to 
America to get welfare, nor is it due to an unwillingness to 
work. Rather, the costs simply reflect the fact that there is 
no single better predictor of one's income, tax payments, or 
use of public services in modern America than one's education 
level. And some 60 percent of illegal aliens have not completed 
high school. And another 20 percent have only a high school 
degree. While the most detailed study of the fiscal effects of 
immigration was done by the National Research Council, it found 
that during their lifetime an immigrant who arrives without a 
high school education will create a net fiscal burden of 
$89,000. This includes all the taxes they will pay and all the 
services they will use. The net drain on taxpayers at all 
levels of government is $89,000. For an immigrant who comes 
with only a high school degree, the net drain is $31,000. 
However, the study found that immigrants who come with more 
education were a fiscal benefit. But the people who will be 
legalized under 2611 are overwhelmingly people who create large 
fiscal costs.
    In terms of the impact on taxpayers, the fundamental 
problem with the Senate bill is that it ignores this basic 
fact. My research shows that if we legalized illegals and they 
began to pay taxes and used services like legal immigrants with 
the same level of education, the net fiscal drain would roughly 
triple on just the Federal Government from $10 billion a year 
to $30 billion a year. That's the difference between what they 
would pay in taxes and use in services.
    This happens because illegals would now be eligible for 
many more social programs, but their low education levels would 
mean their incomes and taxes would still be very modest, even 
though they would be paid on the books. As you know the Senate 
bill increases legal immigration from roughly 1 million to 2 
million a year and grants legal status to some 10 million 
illegal immigrants. For the most part, the bill makes no real 
effort to select new immigrants based on their skills and 
education, nor is that part of the selection criteria for 
legalization. If you take nothing else away from my testimony 
it is the knowledge that it is not possible to avoid the fiscal 
costs of large-scale, unskilled immigration given the realities 
of the modern American economy and the existence of our well-
developed welfare state, unless we are prepared to drastically 
cut spending on programs like the Women, Infants and Children 
Nutrition Program, public education, emergency medical care, 
free school lunches, just to name a few. There is simply no 
desire to do that. The kind of programs that illegal aliens use 
are a permanent feature of our society.
    Let me comment briefly specifically on State and local 
governments. In 2005, one out of every seven persons without 
health insurance in the United States was an illegal alien. The 
cost of providing health care to illegals and their U.S. Born 
children totals some $4 billion a year for State and local 
governments. State and local governments spend another $22 
billion a year to provide illegal aliens and their U.S. born 
children with a free education. As I said, the very low 
education level of the vast majority of illegals means that 
even when paid on the books, they can't pay enough to cover the 
costs they impose even though the vast majority of illegal 
aliens work, typically full-time.
    There is, if you will, a high cost to cheap labor. Now 
putting aside the impact on taxpayers it should also be 
remembered that all the research shows that the economic gain 
to Americans from immigration is very tiny or minuscule in the 
words of the Nation's top economists. And the benefits come 
mainly by driving down the wages and benefits of the least 
educated and poorest Americans which itself is very 
problematic. There is no possibility that the economic benefits 
from unskilled immigration will somehow offset the cost to 
taxpayers.
    We face a simple choice. Either we enforce the law and make 
illegal alien go home, or we shut up about the fiscal costs. 
They are the only two possibilities when it comes to public 
coffers. Thank you.
    [The prepared statement of Mr. Camarota follows:]

                Prepared Statement of Steven A. Camarota

                                SUMMARY

    There is general agreement that the fiscal impact of immigration 
(legal or illegal) depends largely on the education level of the 
immigrants in question. Immigrants with a lot of education pay more in 
taxes than they use in services, while those with little education tend 
to have low incomes, pay relatively little in taxes and often use a 
good deal in public services. In the case of illegal aliens, the vast 
majority have little education, and this is the key reason they create 
fiscal costs. Illegal families often receive benefits on behalf of 
their U.S.-born children. The costs associated with illegal immigration 
are difficult, such as emergency medical care or public education, if 
illegals are allowed to stay. As a matter of policy, either we enforce 
the law and make the illegals go home or stop complaining about the 
costs.

                       KEY FINDINGS OF RESEARCH:

        <bullet>  The National Research Council (NRC) \1\ estimated 
        that immigrant households create a net fiscal burden (taxes 
        paid minus services used) on all levels of government of $20.2 
        billion annually.
---------------------------------------------------------------------------
    \1\ The National Research Council's 1997 report entitled, The New 
Americans: Economic, Demographic, and Fiscal Effects of Immigration. A 
summary of the report's findings can be found at www.cis.org/articles/
1999/combinednrc.pdf

        <bullet>  The NRC estimated that an immigrant without a high 
        school diploma will create a net lifetime burden of $89,000, 
        and an immigrant with only a high school education is a 
        negative $31,000. However, an immigrant with education beyond 
---------------------------------------------------------------------------
        high school is a fiscal benefit of $105,000.

        <bullet>  Estimating the impact of immigrants and their 
        descendants, the NRC found that if today's newcomers do as well 
        as past generations, the average immigrant will be a fiscal 
        drain for his first 22 years after arrival. It takes his 
        children another 18 years to pay back this burden.

        <bullet>  The NRC also estimated that the average immigrant 
        plus all his descendants over 300 years would create a fiscal 
        benefit, expressed in today's dollars of $80,000. Some 
        immigration advocates have pointed to this 300-year figure, but 
        the NRC states it would be ``absurd'' to do so.

        <bullet>  The Center for Immigration Studies (CIS) estimates 
        that in 2002 illegal alien households imposed costs of $26 
        billion on the federal government and paid $16 billion in 
        federal taxes, creating an annual net fiscal deficit of $10.4 
        billion at the federal level, or $2,700 per household.\2\
---------------------------------------------------------------------------
    \2\ See The High Cost of Cheap Labor: Illegal Immigration and the 
Federal Budget, Steven Camarota. http://www.cis.org/articles/2004/
fiscal.html

        <bullet>  Among the largest federal costs were Medicaid ($2.5 
        billion); treatment for the uninsured ($2.2 billion); food 
        assistance programs such as food stamps, WIC, and free school 
        lunches ($1.9 billion); the federal prison/court systems ($1.6 
---------------------------------------------------------------------------
        billion); and federal aid to schools ($1.4 billion).

        <bullet>  If illegal aliens were legalized and began to pay 
        taxes and use services like households headed by legal 
        immigrants with the same education levels, CIS estimates the 
        annual net fiscal deficit would increase to $29 billion, or 
        $7,700, per household at the federal level.

        <bullet>  The Center for Immigration Studies estimates that 
        state and local governments spend some $4 billion a year to 
        provide health care to illegal aliens and their U.S.-born 
        children and $20 to $24 billion to educate children from 
        illegal alien households.

        <bullet>  The primary reason illegal aliens create a fiscal 
        deficit is that an estimated 60 percent lack a high school 
        degree and another 20 percent have no education beyond high 
        school. The fiscal drain is not due to their legal status or 
        unwillingness to work.

        <bullet>  Illegal aliens with little education are a 
        significant fiscal drain, but less-educated immigrants who are 
        legal residents are a much larger fiscal problem because they 
        are eligible for many more programs.

        <bullet>  Many of the costs associated with illegals aliens are 
        due to their U.S.-born children who have American citizenship. 
        Thus, barring illegal aliens themselves from programs will have 
        little impact on costs.

        <bullet>  There are now some 400,000 children born to illegal 
        alien mothers each year in the United States, accounting for 
        almost one in ten births in the country. Of all births to 
        immigrants 39 percent were to mothers without a high school 
        education, and among illegals it was more than 65 percent.\3\
---------------------------------------------------------------------------
    \3\ These figures are based on analysis of birth records complied 
by the National Center for Health Statistics. See Births to 
Immigrations in America, 1970 to 2002, which can be found at 
www.cis.org/articles/2005/back805.html

        <bullet>  The costs associated with providing services to so 
        many low-income children is enormous and will continue to grow 
        if the large-scale immigration of less-educated immigrants 
---------------------------------------------------------------------------
        (legal and illegal) is allowed to continue.

        <bullet>  Focusing just on Social Security and Medicare, CIS 
        estimates that illegal households create a combined net benefit 
        for these two programs in excess of $7 billion a year. However, 
        they create a net deficit of $17 billion in the rest of the 
        budget, for a total net federal cost of $10 billion.

    While there is still much that is not known, we now have some 
reasonably good information about the impact of immigrants on public 
coffers. As I tried to make clear in the summary above, there is a 
pretty clear consensus that the fiscal impact of immigration depends on 
the education level of the immigrants, not their legal status. 
Certainly other factors also matter, but the human capital of 
immigrants, as economists like to refer to it, is clearly very 
important. There is no single better predictor of one's income, tax 
payments, or use of public services in modern America than one's 
education level. The vast majority of immigrants come as adults, and it 
should come as no surprise that the education they bring with them is a 
key determinant of their fiscal impact. In my own research I have 
concentrated on the effect of illegal aliens on the federal government. 
For those wanting a more detailed look at these questions, my most 
recent publications are available online at the Center for Immigration 
Studies web site, www.cis.org.

               ILLEGAL IMMIGRANTS AND THE FEDERAL BUDGET

    A good deal of research has focused on the effect illegals have on 
taxpayers at the state and local level. Much of this work has examined 
only costs, or only tax payments, but not both. In my work I have tried 
to estimate both, and I have focused on the federal government. Based 
on a detailed analysis of Census Bureau data, my analysis indicates 
that households headed by illegal aliens imposed more than $26.3 
billion in costs on the federal government in 2002 and paid $16 billion 
in taxes, creating a net fiscal deficit of almost $10.4 billion, or 
$2,700 per illegal household. The largest costs are Medicaid ($2.5 
billion); treatment for the uninsured ($2.2 billion); food assistance 
programs such as food stamps, WIC, and free school lunches ($1.9 
billion); the federal prison and court systems ($1.6 billion); and 
federal aid to schools ($1.4 billion).\4\ Obviously, the size of the 
illegal population has grown since 2002, so the costs have as well.
---------------------------------------------------------------------------
    \4\ See footnote 2 for the source of this information and all 
information dealing with the fiscal costs of illegal immigration on the 
federal budget.
---------------------------------------------------------------------------
    A Complex Fiscal Picture. While the net fiscal drain illegals 
create for the federal government is significant, I also found that the 
costs illegal households impose on federal coffers are less than half 
that of other households, but their tax payments are only one-fourth 
that of other households. Many of the costs associated with illegals 
are due to their American-born children, who are awarded U.S. 
citizenship at birth. Thus, greater efforts to bar illegals from 
federal programs will not reduce costs because their citizen children 
can continue to access them. It must also be remembered that the vast 
majority of illegals hold jobs. Thus the fiscal deficit they create for 
the federal government is not the result of an unwillingness to work. 
In 2002, I found that 89 percent of illegal households had at least one 
person working, compared to 78 percent of households headed by legal 
immigrants and natives.
    Legalization Would Dramatically Grow Costs. One of my most 
important findings with regard to illegal aliens is that if they were 
given legal status and began to pay taxes and use services like 
households headed by legal immigrants with the same education levels, 
the estimated annual net fiscal deficit would increase from $2,700 per 
household to nearly $7,700, for a total net cost of $29 billion. Costs 
increase dramatically because less-educated immigrants with legal 
status--what most illegal aliens would become--can access government 
programs but still tend to make very modest tax payments. Of course, I 
also found that their income would rise, as would their tax payments if 
legalized. I estimate that tax payments would increase 77 percent, but 
costs would rise by 118 percent.
    These costs are considerable and should give anyone who advocates 
legalizing illegal immigrants serious pause. However, my findings show 
that many of the preconceived notions about the fiscal impact of 
illegal households turn out to be inaccurate. In terms of welfare use, 
receipt of cash assistance programs tends to be very low, while 
Medicaid use, though significant, is still less than that for other 
households. Only use of food assistance programs is significantly 
higher than that of the rest of the population. Also, contrary to the 
perceptions that illegal aliens do not pay payroll taxes, we estimate 
that more than half of illegals work on the books. On average, illegal 
households pay more than $4,200 a year in all forms of federal taxes. 
Unfortunately, they impose costs of $6,950 per household.
    What's Different About Today's Immigration. It is worth noting that 
many native-born Americans observe that their ancestors came to America 
and did not place great demands on government services. Perhaps this is 
true, but the size and scope of government was dramatically smaller 
during the last great wave of immigration. Not just means-tested 
programs, but expenditures on everything from public schools to roads 
were only a fraction of what they are today. Thus, the arrival of 
immigrants with little education in the past did not have the negative 
fiscal implications that it does today. Moreover, the American economy 
has changed profoundly since the last great wave of immigration, with 
education now the key determinant of economic success. The costs that 
unskilled immigrants impose simply reflect the nature of the modern 
American economy and welfare state. It is very doubtful that the fiscal 
costs can be avoided if our immigration policies remain unchanged.

           ILLEGAL IMMIGRANTS AND STATE AND LOCAL GOVERNMENT

    In my own research I have focused on fiscal costs at the federal 
level. It should also be noted that in the 1997 NRC study, The New 
Americans, mentioned above the estimated lifetime fiscal drain at the 
state and local level from all immigrants (legal and illegal) was 
negative $25,000. That is, immigrants cost state and local government 
$25,000 more in services than they paid in taxes in the course of their 
lifetime. Some newer data exists to estimate the impact of illegals on 
state and local governments in such areas as health care and public 
education. The estimates below provide some insight into the likely 
impact of illegal immigration at the state and local governments on 
these two key public services. Below I discuss only the impact of 
illegal immigration.
    Health Care. In 2004, state governments spent $125 billion on 
Medicaid--health insurance coverage for low incomes.\5\ Based on prior 
research, some $2.1 billion of that money went to persons in illegal-
alien households, mostly their U.S.-born children.\6\ Data from 2005 
also indicated that of the 45.8 million uninsured people in the country 
(persons on Medicaid are considered to have insurance), some 7 
million--or 15 percent--are illegal aliens or the young U.S.-born 
children of illegals under age 18.\7\ State and local governments spend 
some 12 billion on treatment for the uninsured.\8\ Thus, it seems 
likely that illegals and their children cost state and local 
governments some $1.8 billion on top of the $2.1 billion spent on 
Medicaid. In total, the best available evidence indicates that illegal 
immigration costs state and local governments some $4 billion a year. 
The federal government likely spent an additional $6 billion on health 
care for illegals and their children in 2004.
---------------------------------------------------------------------------
    \5\ Cash and Noncash Benefits for Persons with Limited Income: 
Eligibility Rules, Recipient and Expenditure Data, FY2002-FY2004, Karen 
Spar, Coordinator. Congressional Research Service, March 27, 2006.
    \6\ See The High Cost of Cheap Labor: Illegal Immigration and the 
Federal Budget, which can be found at www.cis.org/articles/2004/
fiscal.html I estimated that slightly less than 2 percent of federal 
expenditures on Medicaid went to persons in illegal households. The 
above estimate assumes that the same percentage holds true at the state 
and local level.
    \7\ The number of uninsured illegals and their children is based on 
my analysis of the March 2005 Current Population Survey conducted by 
the Census Bureau and is consistent with other research on topic.
    \8\ In a February 2003 study in Health Affairs, which can be found 
at http://www.healthaffairs.org, Hadley and Holahan estimated 
government expenditures for treating the uninsured in 2001. An updated 
study for the Kaiser Family Foundation, which can be found at http://
www.kff.org, has estimates for 2004. Our estimated costs for treating 
illegals does account for the fact that illegals are not eligible to 
use all of the services provided to the uninsured by virtue of their 
legal status.
---------------------------------------------------------------------------
    Public Education. State and local governments spent some $400 
billion on public education in 2003. Between 5 and 6 percent of all 
children in public school are themselves illegal aliens or are the 
U.S.-born children of an illegal alien. Putting aside the higher costs 
associated with educating language minority children, the costs of 
providing education to these children still must come to $20 to $24 
billion for state and local governments. The federal government also 
provides funding for public education, a significant share of which is 
specifically targeted at low-income, migrant, and limited English 
students. The Federation for American Immigration Reform estimated that 
the costs of educating illegal-alien children at all levels of 
government, including the federal expenditures, was nearly $12 billion 
in 2004, and when the children born here are counted they estimated the 
figure at $28 billion.

          POLICY OPTIONS FOR DEALING WITH ILLEGAL IMMIGRATION

    The negative impact on the federal budget from illegal immigration 
need not be the only or even the primary consideration when deciding 
what to do about illegal immigration. But assuming that the fiscal 
status quo is unacceptable, there are three main changes in policy that 
might reduce or eliminate the fiscal costs of illegal immigration. One 
set of options is to allow illegal aliens to remain in the country but 
attempt to reduce the costs they impose. A second set of options would 
be to grant them legal status as a way of increasing the taxes they 
pay. A third option would be to enforce the law and reduce the size of 
the illegal population and with it the costs of illegal immigration.
    Let Illegal Stay Illegal, But Cut Costs. Reducing the costs 
illegals impose would probably be the most difficult policy option 
because illegal households already impose only about 46 percent as much 
in costs on the federal government as other households. Moreover, the 
fact that benefits are often received on behalf of their U.S.-citizen 
children means that it is very difficult to prevent illegal households 
from accessing the programs they do. It seems almost certain that if 
illegals are allowed to remain in the country, the fiscal deficit will 
persist.
    The High Cost of Legalization. As discussed above, our research 
shows that granting illegal aliens amnesty would dramatically increase 
tax revenue. Unfortunately, we also find that costs would increase even 
more. Costs would rise dramatically because illegals would be able to 
access many programs that are currently off limits to them. Moreover, 
even if legalized illegal aliens continued to be barred from using some 
means-tested programs, they would still be much more likely to sign 
their U.S.-citizen children up for them because they would lose 
whatever fear they had of the government. We know this because 
immigrants with legal status, who have the same education levels and 
resulting low incomes as illegal aliens, sign their U.S.-citizen 
children up for programs like Medicaid at higher rates than illegal 
aliens with U.S.-citizen children. In addition, direct costs for 
programs like the Earned Income Tax Credit would also grow dramatically 
with legalization. Right now, illegals need a Social Security number 
and have to file a tax return to get the credit. As a result, 
relatively few actually get it. We estimate that once legalized, 
payments to illegals under this program would grow more than ten-fold.
    Enforcing the Law. If we are serious about avoiding the fiscal 
costs of illegal immigration, the only real option is to enforce the 
law and reduce the number of illegal aliens in the country. First, this 
would entail much greater efforts to police the nation's land and sea 
borders. At present, less than 2,000 agents are on duty at any one time 
on the Mexican and Canadian borders. Second, much greater effort must 
be made to ensure that those allowed into the country on a temporary 
basis, such as tourists and guest workers, are not likely to stay in 
the country permanently. Third, the centerpiece of any enforcement 
effort would be to enforce the ban on hiring illegal aliens. At 
present, the law is completely unenforced. Enforcement would require 
using existing databases to ensure that all new hires are authorized to 
work in the United States and levying heavy fines on businesses that 
knowingly employ illegal aliens.
    Policing the border, enforcing the ban on hiring illegal aliens, 
denying temporary visas to those likely to remain permanently, and all 
the other things necessary to reduce illegal immigration will take time 
and cost money. However, since the cost of illegal immigration to the 
federal government alone is estimated at over $10 billion a year, 
significant resources could be devoted to enforcement efforts and still 
leave taxpayers with significant net savings. Enforcement not only has 
the advantage of reducing the costs of illegal immigration, it also is 
very popular with the general public. Nonetheless, policymakers can 
expect strong opposition from special interest groups, especially 
ethnic advocacy groups and those elements of the business community 
that do not want to invest in labor-saving devices and techniques or 
pay better salaries, but instead want access to large numbers of cheap, 
unskilled workers. If we choose to continue to not enforce the law or 
to grant illegals legal status, both the public and policymakers have 
to understand that there will be significant long-term costs for 
taxpayers.

                               CONCLUSION

    If you take nothing else away from my testimony, it should be 
remembered that it simply is not possible to fund social programs by 
bringing in large numbers of immigrants with relatively little 
education. This is central to the debate over illegal immigration 
because 60 percent of illegals are estimated to have not completed high 
school and another 20 have only a high school degree. The fiscal 
problem created by less-educated immigrants exists even though the vast 
majority of immigrants, including illegals, work and did not come to 
America to get welfare. The realities of the modern American economy 
coupled with the modern American administrative state make large fiscal 
costs an unavoidable problem of large-scale, less-educated immigration.
    This fact does not reflect a moral defect on the part of 
immigrants. What it does mean is that we need an immigration policy 
that reflects the reality of modern America. We may decide to let 
illegals stay and we may even significantly increase the number of 
less-educated legal immigrants allowed into the country, which is what 
the immigration bill recently passed by the Senate would do. But we 
have to at least understand that such a policy will create large 
unavoidable costs for taxpayers.

    Mr. Sensenbrenner. Thank you, very much, Mr. Camarota.
    In order for us to have more than one round of questions, 
the Chair intends to enforce the 5-minute rule on Members, 
including himself, pretty strictly and that way we can have a 
couple of rounds of questions and maybe even three rounds of 
questions before noon.
    The gentleman from Massachusetts Mr. Meehan.
    Mr. Meehan. Representative Renzullo, how long have you been 
a State legislator in New Hampshire?
    Mr. Renzullo. I have been a legislator for 2 years.
    Mr. Meehan. In the House?
    Mr. Renzullo. In the House. Before that, I was in local 
politics.
    Mr. Meehan. And when you pass a bill in the House and the 
Senate passes a bill, does it go to a Conference Committee?
    Mr. Renzullo. If there is a difference, yes.
    Mr. Meehan. Right. And you are aware that the House passed 
a bill and the Senate passed a bill, and we're awaiting a 
Conference Committee?
    Mr. Renzullo. I am aware of that.
    Mr. Meehan. Do you know Senator Gregg from New Hampshire?
    Mr. Renzullo. Yes, I do.
    Mr. Meehan. Did you send him a letter as this bill was 
being debated the United States Senate?
    Mr. Renzullo. I'm not certain if I did or not. I know I 
have told him that the Senate bill was----
    Mr. Meehan. But you are not certain whether you sent him a 
letter or not?
    Mr. Renzullo. I probably did. I know I sent--if I didn't 
send him a letter, I probably called his office.
    Mr. Meehan. You mentioned the cost of people going to the 
emergency rooms. You phrased it as illegal aliens that go to 
the emergency rooms in our hospitals.
    Mr. Renzullo. I did not say--I said the costs, yes, okay. I 
understand what you are saying, okay.
    Mr. Meehan. Right. Do you know how many legal American 
citizens in the United States don't have health insurance?
    Mr. Renzullo. I think it is approximately, if I look at the 
data, 45 million. And Mr. Camarota has the data that says 6 or 
7 are illegal.
    Mr. Meehan. It is about 45.8 million Americans who don't 
have health insurance. And those 46 million Americans that 
don't have health insurance who are legal citizens are going to 
emergency rooms all across America to get their health 
insurance. And the reason: to get coverage. That's what is 
happening now. So this idea that we are going to blame our 
problems in the health care system on illegal immigrants, the 
fact of the matter is, we should be ashamed of ourselves as the 
richest, most powerful country in the world that 46 million 
American citizens don't have health insurance. It is 
unconscionable.
    I really believe that what we need to do is provide 
leadership and get this legislation--work out the differences 
between the Senate and the House. And I honestly I don't 
believe that anyone is fooled by this process of having 
hearings after the bill has passed the House and the Senate. 
The newspapers all across America are rightly calling these 
hearings pointless and calling them a stalling technique.
    I don't understand where advocates for stronger Border 
Patrol, more guards on the border, more and better technology 
to implement the 9/11 Commission reports that haven't been 
implemented, I don't understand why it is better to do nothing 
than to try to work out differences between the House and the 
Senate. I just don't understand it.
    In Massachusetts, the Boston Herald, a pretty conservative 
newspaper, they say that the House's unwillingness to get to 
work is the only roadblock to reform. House Bill 4437 was 
introduced on Tuesday, December 6. It passed the House on 
Friday the 16th. Not one hearing. Not one hearing. It is 
unprecedented to have the House pass a bill and the Senate pass 
a bill and then decide to do a road show with hearings all 
across the country.
    There comes a time when people have to roll up their 
sleeves and go to work. And I might add, I gave the statistics 
earlier, as the Republicans are in control of the House--they 
are in control of the Senate; they are in control of the White 
House; they are in control of the Supreme Court--illegal 
immigrants are still coming over the border in record numbers. 
The enforcement on the borders under this President has been 
terrible. In fact, this Congress has not even funded all of the 
border security personnel that have been authorized.
    So I don't know how we get into this, we are going to do 
nothing because we think that doing nothing is better than 
doing something, because we will have an election in November, 
and we will make it seem that we are for something so tough 
that we can't do anything. And I think that is wrong. I think 
the American people are calling for reform. They want us to 
deal with this issue. And they want us to deal with it openly 
and honestly, and what that means is rolling up your sleeves 
and working it out in the Conference Committee.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Indiana, Mr. 
Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    At the outset, I think the record should be clarified. In 
you testimony, Dr. Camarota, your written testimony, you give 
the figure of 45 million uninsured people in the country, but 
that is not 45 million citizens of the United States.
    Mr. Camarota. Over 13 million of them are either immigrants 
or the young child of an immigrant parent. About 6.3 million of 
those are illegal aliens. It is from the March 2005 current 
population survey. Most research suggests that 90 percent of 
illegal aliens respond.
    Mr. Meehan. Will the gentleman yield on that point? My 
figures didn't come from him.
    Mr. Sensenbrenner. The time belongs to the gentleman from 
Indiana.
    Mr. Hostettler. So your figures are probably wrong. Given, 
Dr. Camarota, that 15 percent of the uninsured population in 
America are illegal aliens, let me ask you about the growth in 
that. Relative to the total population of illegal aliens and 
the proportion of American citizens, is the population of 
uninsured illegal aliens growing faster than the population of 
uninsured American citizens?
    Mr. Camarota. Yes, sir, absolutely. Since about 1989, the 
uninsured population is up roughly 12 million. About 9 million 
of the increase in the last 15 years are new immigrants or the 
children born to immigrants, and half of that or more is 
illegal aliens. So you are looking at around half of the growth 
in the uninsured in the United States being from illegal 
immigration.
    Mr. Hostettler. Dr. Camarota, your cost on taxpayers are 
costs that are as a result of direct payment of services for 
illegal aliens; is that correct?
    Mr. Camarota. Services that they would use in a broad 
sense. Plus I tried to take into account all the taxes they 
would pay, too.
    Mr. Hostettler. In previous testimony before our 
Subcommittee, you have remarked that, between 2000 and 2004, 
foreign born workers added 1.1 million to the number in three 
job classifications, contribution labor, building maintenance 
and food preparation. But in 2004, there were 2 million adult 
native Americans unemployed in those three job classifications. 
Is that correct? Do you remember that testimony?
    Mr. Camarota. That sounds about right. I can't say exactly, 
but that sounds about right.
    Mr. Hostettler. Given the displacement that has taken place 
with regard to American workers in the workplace as a result of 
illegal aliens coming into the labor pool, are there not 
significant indirect costs as a result of displaced Americans 
who do have access to a much larger array of government 
programs for government aid as the result of being once against 
displaced by illegal aliens?
    Mr. Camarota. Yes, lower wages for natives should result in 
them using more social services as a result of the immigrant 
competition, and also, those who leave the labor market 
entirely or become unemployed, there are added social services 
costs associated with that as well. I haven't calculated those.
    Mr. Hostettler. There are significantly higher costs as of 
result of that. We appreciate that.
    An expansion of health benefits as suggested by Dr. Lewy 
would do what to the foreign population of individuals who 
would consider coming into the country illegally? If we 
expanded social spending programs for illegal aliens and 
especially the children of illegal aliens not born in the 
United States, what would that do to the motivation of foreign 
populations with regard to their desire to enter illegally?
    Mr. Camarota. One would have to expect that, obviously, it 
is a very attractive option in a country like Mexico where it 
is difficult to access a less developed health care system, 
coming to the United States and at least getting care for your 
children would make it more attractive. How much of an impact 
we don't know. The other thing it would do is make illegal 
aliens who often go home on their own each year more likely to 
stay. There is a wealth of literature that shows that benefits 
tend to reduce out-migration.
    Mr. Hostettler. Thank you. Mr.
    Young, in your testimony, you use the analogy of a dam and 
its repair and the breach of a dam, a hole being placed on the 
dam. Interestingly, when that takes place, where there is a 
hole below the water line what takes place, according to the 
Corps of Engineers, is they build what is called a cofferdam. 
They create a barrier that surrounds the place of the breach, a 
barrier, a physical barrier, pump the area dry to effect the 
repairs. It has to be dry. They can't have water obviously 
streaming in.
    This is a very good analogy. I commend you for the analogy. 
This is an analogy that is very apropos to the House passed 
bill, the Sensenbrenner bill that included exactly what you are 
suggesting. And that is the creation of a barrier that would 
stop the upstream flow--or if you use the analogy of the 
southern border--the upstream flow into the United States. That 
is what the House is attempting to do is to repair that breach 
of the dam.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Mr. Chairman, I clearly want to defer to you 
as Chair, and you haven't posed your questions. If you are 
extending the courtesy to me.
    Mr. Sensenbrenner. Your turn, Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I am sure that will 
not be taken off my time.
    Mr. Sensenbrenner. I will reset the clock.
    Mr. Delahunt. Thank you for resetting the clock.
    Mr. Camarota, you have testified before in numbers of 
hearings. You are part of the traveling show at this point in 
time.
    Mr. Camarota. This is my first traveling hearing that I 
have attended.
    Mr. Delahunt. And I want to be very clear. This is not an 
ad hominem remark, but I am unsure as to the methodology that 
you utilize when you come to your figures. And I am sure it is 
a good-faith effort, but I have seen statistics--whether it is 
Social Security, whether it is the CBO or the OMB statistics, 
we see them all the time in the U.S. Congress, the deficit, for 
example, that bounces around and up and down, and I dare say, 
to a significant degree, it is a guess.
    Back in 1986, much has been talked about in terms of that 
legislation. The number of illegals was estimated to be 9 
million at that point in time. And subsequently, we learned 
after the passage of the 1986 act that in fact it was 3 
million. So it causes me some unease to be relying on 
statistics that are put forth.
    But be that as it may, as I said, you testified earlier 
that in the aftermath of the passage of the 1986 act, there was 
a dramatic decline in the number of illegals coming into the 
country. And yet, well, let me quote your testimony: ``But it 
does appear,' and I'm quoting you, ``that as soon as they 
realized that that wasn't going to happen, meaning that the law 
was not going to be enforced, there was an upturn.'' That is 
your testimony.
    Mr. Camarota. Yeah, I think there is general agreement that 
right after passage----
    Mr. Delahunt. I am asking a specific question. That is your 
testimony? Without enforcement, without enforcement, no law is 
worth the paper that it is written on. I think we can all agree 
in that. And because of the failures of the executive and 
Congress at the time to enforce the law, there was an exercise, 
if you will, that was a sham. As soon as the word filtered out 
to the immigrant community that, don't worry, they are talking 
tough, but they really are not doing anything, there was a 
resurgence of undocumented aliens coming into this country. 
That's a statement by me, not a question, I'm just looking at 
your testimony.
    But I'm going to ask--there is a chart to be put up here. 
Because let me suggest that whatever we do--and by the way, I 
believe, with all due respect to New Hampshire--I love New 
Hampshire, you are part of Red Sox Nation, we appreciate that--
but we ought to be in Washington, D.C., not myself, but at 
least Chairman Sensenbrenner and the Subcommittee chair working 
with the conferees in the Senate to see if we can iron out this 
difference and do something. But for those of you that are 
concerned about this issue, please note that President Bush 
called President Fox earlier this month subsequent to our 
recess to inform President Fox that there appeared to be no 
hope of passage of any legislation this year.
    So now what we have accomplished is a big fat nothing, 
whether it be border security, whether it be comprehensive--
whatever you want to call it--we are not going to get the job 
done. And as my colleague from Massachusetts mentioned, there 
is only one party--there is only one party in our political 
system today that controls the House, controls the Senate, 
controls the White House, and that's the Republican Majority.
    So we know what this is all about today. This is about 
securing some sort of political advantage. Now, some might 
suggest that they want to pressure Senator Gregg, because it 
could be the Gregg-Frist-McConnell bill, not necessarily the 
Reid-Kennedy bill. But they all support that particular 
approach comprehensively.
    But I don't really think it is about that. I think it is 
about House seats and where there are competitive races going 
on, and that is why we are in New Hampshire, and that is why 
the Democrats in this Committee will have a press conference 
immediately after this hearing to describe what we think is 
happening with this particular issue as far as whether it is 
real or a sham.
    Mr. Sensenbrenner. I ask unanimous consent that the general 
have an additional 2 minutes if he would like to keep on going 
on.
    Mr. Delahunt. Yes.
    Mr. Sensenbrenner. Without objection, so ordered.
    Mr. Delahunt. I thank my dear friend and colleague from 
Wisconsin for the additional 2 minutes.
    Mr. Meehan. Will the gentleman yield for a question? We 
passed the 9/11 act calling for an additional 2,000 Border 
Patrol agents, 800 immigration agents and 8,000 beds per year. 
Have the Republicans funded that?
    Mr. Delahunt. No.
    Mr. Meehan. They only funded about half of it; isn't that 
right?
    Mr. Delahunt. We will have more charts and more to say 
after this is over. Because we are here because we knew that we 
had to come. But what I would do is refer to this chart that is 
just about ready to fall, just to show a comparison, because we 
know what the Republicans are trying to do. They are trying to 
say that the Democrats are soft on border enforcement. That is 
just pure bunk. Okay? That is absolute bunk.
    We all know that we have got to strengthen our borders. 
That's a given. The question is, how do we get there in a 
thoughtful and reasonable way? And we ought to be able to work 
together to do it. They did it in the Senate. You know, Frist 
did sit down with Reid, and Kennedy did sit down with McCain 
and Senator Gregg. Of course, there are disagreements, and 
nothing is perfect. But this chart speaks for itself as far as 
who is doing what.
    Mr. Sensenbrenner. The time of the gentleman has once again 
expired.
    Mr. Delahunt. I thank the gentleman.
    Mr. Sensenbrenner. The gentleman from New Hampshire, Mr. 
Bass.
    Mr. Bass. Thank you very much Mr. Chairman. And I want to 
express my gratitude for the invitation to participate in this 
hearing as a non-Member of the Committee. I want to thank my 
friends, my neighbors from Massachusetts. I am glad to see that 
my friend from Lowell travels farther north than the Manchester 
Regional Airport, which he does many times. And my friend from 
Cape Cod, one of the nicer parts of America.
    I also want to bring to the Chairman's attention the fact 
that both my colleague Jeb Bradley and I have spent many 
enjoyable years in this chamber. And the chair right in front 
of the Chairman is a chair that I occupied for 2 years and 
subsequent to that moved back in section 3 for reasons which we 
will probably not go into detail today. Placement in this 
chamber is very important, Mr. Chairman.
    I also want to say that my friends from Massachusetts have 
pointed out very eloquently that immigration is not a partisan 
issue. Clearly, there are Republicans and Democrats on both 
sides of this issue, and it is a legitimate debate that 
deserves to occur anywhere in the United States, not just in 
Washington, D.C.
    And from my perspective, I would like to make six 
observations about the element that I think a comprehensive 
immigration reform bill needs to contain. First of all, as has 
been said already, we need to have a better effort to secure 
our borders with additional manpower, technology and resources. 
We need to allow State and local law enforcement officials more 
latitude in helping Federal officers in dealing with illegal 
immigrants and their disposition. We need to provide employers 
with the resources that they need to adequately determine 
eligibility of potential foreign workers and penalize those 
companies that continue to hire illegal aliens. Fourthly, we 
need to reform the immigration processing system in this 
country to cut down on the long backlogs and waiting periods 
that exist for people who are trying to receive visas and green 
cards.
    I also think that we need to address visa programs to 
assure that this country remains compassionate to those who 
want to enter this country legally. And lastly, I think a 
comprehensive immigration bill needs to address, as Mr. Young 
mentioned, the need have our legal immigration system 
adequately reflect the real employment needs in this country. 
This country was built over a 230-year period with access to 
labor from many, many, many hundreds of thousands of people who 
came to this country legally and built America to be the strong 
Nation that it is today. We need to make sure that we continue 
to make that happen but that people who are here are here 
legally. We know who they are, and they don't provide a 
national security threat to America.
    And lastly, I would say that the concept of providing legal 
status to somebody who broke the law and is here illegally 
should not be tolerated. There are ways which we can deal with 
this issue, and I, again, have to agree with my friends on the 
other side of the aisle that we will at some point get together 
and work this issue out. But let me just say that it is 
important for America to participate in this debate. And I have 
no objection with the idea that we have a debate in Concord, 
New Hampshire, or Concord, California, or anywhere else in the 
United States because it is good for America to participate in 
this important issue.
    I want to thank the Chairman for allowing me to be here and 
participate. I hope that he will excuse me if I am unable to 
stay for the entire length of the hearing. I welcome him to New 
Hampshire and welcome him to the oldest capitol building in 
continuous use in the United States here in Concord, New 
Hampshire. I yield back.
    Mr. Sensenbrenner. Thank you.
    The gentlewoman from Florida, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I thank the 
witnesses for being here and for their interest in this 
important issue. The American people expect Congress to do more 
than just talk about this problem. They want us to get down to 
the tough business of hammering out a compromise between the 
House and Senate bills. They know that we have a border 
security problem, although you would not know it from the 
actions of the Republican-controlled Congress. The American 
people want action.
    The House passed an enforcement-only bill in December, and 
the Senate passed a comprehensive bill in May. And it is time 
for Congress to start legislating and stop pontificating which 
is what we have been doing here this morning. The Republican 
leadership of this Committee and of the House of 
Representatives essentially want to run out the clock with this 
election year road show that they have been on in congressional 
districts with vulnerable House Members. And what is worse is 
that they are holding these hearings on the taxpayer's dime.
    But the American people see through it. Whether they are in 
New Hampshire, where I am a home owner and a seasonal resident, 
or my home State of Florida, Americans want a solution, not 
election year spin.
    Now how about we start enforcing the immigration laws that 
are already on the books? That would be a solution. I would 
like to just walk the people assembled here through the 
difference between how Democrats handled border security and 
how Republicans have handled it.
    If you look at this chart right here, ``Border Security By 
the Numbers,'' under the Clinton administration, the average 
number of new Border Patrol agents that were added per year 
from 1993 to 2000 were 642. Since President Bush has been in 
office and this Congress has been controlled by Republicans, we 
have added 411.
    If you look at the INS fines, the Immigration and 
Naturalization Service now called CIS, fines for immigration 
enforcement. That is against employers who illegally employ 
illegal immigrants. There were 417 fines against employers in 
1999 when President Clinton was in office, and in 2004, when 
President Bush was in office, there were only three. So who is 
for border security, and who is just kidding?
    48 percent fewer completed immigration fraud cases. In 
1995, when President Clinton was in office, there were 6,455 
completed immigration fraud cases. Under the Bush 
administration in 2003, there were 1,389.
    Thousands of illegal immigrants have been caught since 
President Bush has been in office, and they are going free each 
year. Why? Because there are not enough beds at detention 
facilities to house them. Why are there not enough beds? 
Because this Republican Congress has refused to deliver the 
resources needed to do the job right. Even though the 9/11 
Commission recommended and the Intelligence Reform Act demanded 
8,000 additional beds, this Republican Congress has funded only 
1,800, a small fraction of what it should have. As a result, 
out of all the undocumented immigrants who are caught and 
released on their promise to come back to court, 70 percent 
never return. That is no surprise, and it is certainly not a 
solution.
    It is not just beds and detention centers. Republicans have 
taken bad vote after bad vote on border security. We have 
proposed dozens of amendments to increase the funding for 
border security, and every one has been defeated along party 
lines. Even though the 9/11 Commission recommended and the 
Intelligence Reform Act mandated 800 more immigration agents, 
this Republican Congress has so far funded only 350. That is 
not a solution. And I could go on and on about the Republicans' 
failure to lead on this issue as the party in charge of the 
House, the Senate and the White House, but they have not gotten 
it done. All they are doing is going around the country talking 
about getting it done.
    So Representative Renzullo, I am also a former State 
legislator, and I am sympathetic to the frustration you must 
feel with your party. Our former late Governor Lawton Chiles 
actually filed a lawsuit against the Federal Government, and 
that was thrown out by a Federal judge, because we do not get 
the funding that we expect from the Federal Government to deal 
with our illegal immigration problem.
    You expect the Federal Government to solve Federal 
problems, but when it fails the way Republicans have 
consistently failed on border security, you want to take 
matters into your own hands, which is why you filed a number of 
pieces of legislation to do that. Understandably frustrating.
    So let's talk about how Congress is going to solve this 
problem. Enforcement always sounds good, but it is not a 
complete solution. Do we need border enforcement? I'm from the 
State of Florida. Trust me, we do. But we need more than that. 
We need policies that will take pressure off the border. We 
need comprehensive immigration reform.
    Mr. Gadiel, I am truly sorry for the loss of your son on 
September 11th. And you know better than anyone that we must 
know who is in this country if we are to keep our Nation 
secure. But we will never know who is in our country so long as 
a broken immigration system keeps millions living in the 
shadows.
    So I'm asking all of you, what do we do with the 12 million 
folks that are currently here, 12 million people who are not 
terrorists but hardworking people who have come to find a 
better way of life for their families? Even Florida's Governor 
Jeb Bush, who is no liberal by any definition, believes that 
the House immigration policy ignores reality. When he decided 
to support legislation allowing illegal immigrants to have 
driver's licenses, he said this: We shouldn't allow them to 
come into our country to begin with, but once they are here, 
what do you do? Do you say that they are lepers to society, 
That they don't exist? It seems that a policy that ignores them 
is a policy of denial.
    That's the Governor of my home State of Florida.
    What do we do with a haystack of unknown people so large 
that it is impossible for our security agencies to target the 
few bad apples that want to harm them? We just can't declare 
all illegal immigrants to be felons as the House bill does and 
hope that they will deport themselves. It won't work. This is a 
complex problem, and it is going to take a comprehensive 
solution. And yes, as we have heard here today, it is going to 
be expensive. But are we really going to say that we are not 
willing to spend over the next 10 years one-third of what we 
already spent in Iraq in the last 3 if we could solve a major 
problem in our homeland that is crucial to our national 
security?
    Some people say the United States is a Nation of 
immigrants. Other people say the United States is a Nation 
laws. We do not have to choose between the two. We have to 
understand that it is the only way--what we have to understand 
is that the only way to----
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Wasserman Schultz. I yield back the balance of my time.
    Mr. Sensenbrenner. The Chair recognizes himself for 5 
minutes for some questions.
    First of all, let me say that I think we all agree that 
illegal immigration is one of the major problems facing our 
country today. I was in Congress, alone among the Members of 
this panel here today, in 1986 when the Simpson-Mazzoli bill 
passed. I voted against it because I didn't think it would 
work. And we are here today talking about a much more 
complicated issue because Simpson-Mazzoli failed.
    I genuinely believe that the amnesty provisions that are 
contained in the Senate bill are the Son of Simpson-Mazzoli, 
and they will fail as well. And because there are more people 
in this country, it will be more expensive, and there will be 
an even greater magnet to bring people across the border.
    For the last 20 years, I have said that the key to making 
any immigration reform work is the enforcement of employer 
sanctions. And one of the provisions that is in the House-
passed bill sets up a mandatory verification of Social Security 
numbers system to make sure that someone who is applying for a 
job is actually using their own Social Security number. And if 
the system shows that there is a true match, then the employer 
would be given protection against prosecution. However, if 
there is no match and somebody is using a number that is either 
made up or obtained through identity theft, then the employer 
would be prosecuted. And the bill raises the fines for hiring 
illegal aliens significantly. Currently the fine is $100 per 
illegal worker per day for the first offense. My bill raises it 
to $5,000. Because you do not have fines act as a deterrent to 
illegal activity in anything unless the fines are high enough 
so that if somebody gets busted, it really hurts and everyone 
who is thinking about that type of illegal activity will say, 
``gee, I don't want to have that happen to me.''
    Now there have been a lot of allegations of why the 
immigration issue is procedurally wrapped around the axelrod. 
When the Senate passed their bill before Memorial Day, they did 
not message the bill to the House. Conversely, when the House 
passed its bill right before Christmas, there was a message 
that was sent to the Senate. Now, the House can't send the 
Senate bill to conference if it does not have the message. And 
furthermore, what the Senators did is they added $50 billion in 
new taxes in their bill. The Constitution is quite plain that 
tax legislation has to originate in the House of 
Representatives. And if the House should ever receive the 
Senate bill, then the tax writing Ways and Means Committee 
would blue slip the bill and send it back to the Senate, and we 
would be right back where we started from.
    So I am eager to get some type of legislation passed 
because doing nothing, in my opinion, is the worst possible 
alternative. But because of the failure of the Senate on both 
the Constitutional and the process issue, we have been 
hamstrung on that. And that, I sincerely regret.
    I think what is going to have to happen is that we have to 
work on getting a comprehensive bill that is on a clean piece 
of paper rather than trying to untie the Gordian knot because 
of the Senate's constitutional and procedural violations.
    Now, having said that, Mr. Young, I have a question for 
you. The House bill requires verification of Social Security 
numbers under the system I have described; new hires within 2 
years and existing employees in 6. The Senate bill does not 
require the verification of existing employees.
    That concerns me because a current illegal immigrant worker 
would be able to keep their job forever, but much worse is that 
they end up becoming an indentured servant because they would 
not be able to change jobs because a bad Social Security number 
would be caught when they applied for a new job.
    The Chamber of Commerce has been opposed to verifying the 
status of existing employees. Will they change their position 
on this because of the concerns that I have just raised?
    Mr. Young. I don't think that they will change their 
position about retroactivity. We have to remember that the 
Senate bill also contains adjustment of status of workers. At 
that time, they will have to come forward with new Social 
Security cards which do identify them in order to take 
advantage of that system.
    Mr. Sensenbrenner. If I could reclaim my time and ask 
unanimous consent for an additional minute. It is always 
cheaper to hire an illegal immigrant and to pay that illegal 
immigrant off the books than it is to hire a citizen or legal 
immigrant with some type of work authorization. So if we do not 
enforce the employer sanctions on existing employees strictly 
and adequately, there will be another flood of illegal 
immigrants that come across the border that will take away the 
jobs of the people who will be newly legalized in the Senate 
bill.
    Does the Chamber of Commerce want to solve the problem or 
does the Chamber of Commerce want to continue being able to 
hire cheap labor which they pay off the books because the 
people are not legally authorized to work in the United States?
    Mr. Young. Prospectively, business and agriculture is 
willing to verify all their workers, and that will include new 
people coming into this country after the passage of the bill.
    Mr. Sensenbrenner. Thank you very much.
    The gentleman from New Hampshire, Mr. Bradley.
    Mr. Bradley. Thank you very much, Mr. Chairman. I 
appreciate the fact that you are willing to come to New 
Hampshire today to hold this hearing. Like my colleague, 
Charlie, it is great to be back in this room where I had the 
opportunity to spend 12 years and to see a lot of friends on 
both sides of the aisle.
    Mr. Chairman, I have a somewhat unique perspective on this 
immigration debate that we're having. My wife of 27 years, 
Barbara, is a legalized citizen. She went through the regular 
process of applying for citizenship and then becoming an 
American and several years ago proudly did so. So I understand 
firsthand having gone through it the challenges that people 
will face in order to become American citizens, and I also 
understand the attraction of those people who would like to 
become American citizens.
    However, we also have to recognize that we are a society of 
immigrants, but we are a Nation that adheres to the fundamental 
rule of law. Our country welcomes immigrants, like my wife 
Barbara, who go through the proper channels, the legal channels 
to come to this country. But we are that Nation of laws, and 
affording those individuals who came to this country illegally 
or became illegal after entering this country, affording them 
an automatic path to citizenship in my opinion is not fair for 
those immigrants who patiently wait in line doing everything 
they are required to do to come to this country legally.
    So we should not in my view be creating incentives for 
people to come here illegally, because it rewards that behavior 
and it encourages it. Mr. Chairman, that is why I support the 
House bill and I support your leadership in making the House 
bill the House position on this issue, because it enhances our 
border security. It strengthens immigration laws. It promotes 
policies that enforce those laws. We all know that securing our 
border is essential to the safety of all Americans, and it is 
essential to thwart the possibilities of attacks against our 
Nation.
    The House bill will end the catch-and-release practice by 
requiring mandatory detention of all illegal immigrants 
apprehended at U.S. land borders. In addition to other strong 
provisions, the legislation improves our ability to crack down 
on illegal smuggling rings, strengthens our asylum laws, 
employs surveillance technology and more people at the border. 
These are the tools that will allow us and allow our Border 
Patrol agencies to better do their job.
    Lastly, Mr. Chairman, history tells us that rewarding 
illegal behavior leads to more illegal behavior. Congress 
should not be in the business of rewarding that illegal 
behavior with an automatic path to citizenship. Illegal 
immigration weakens our security, burdens our social services--
--
    Ms. Wasserman Schultz. Will the gentleman yield?
    Mr. Bradley. And hurts American taxpayers. No, I would 
yield the balance of my time to the Chairman who I thought did 
an exceptional job last night on national television talking 
about the CBO scoring of the Senate bill and perhaps would want 
to describe it to the Granite Staters who are here today. And 
once again, Mr. Chairman, I thank you for coming to New 
Hampshire.
    Mr. Sensenbrenner. I appreciate the gentleman from New 
Hampshire yielding. It certainly is a pleasure being here.
    Let me say that, earlier this week, the Congressional 
Budget Office did score the Senate bill at $127 billion of new 
expenditures. About 40 percent of that is various types of 
welfare and public assistance benefits that illegal immigrants 
are currently not entitled to receive as well as the earned 
income tax credit which is actually a payment by the Federal 
Government to certain low-income people which has been on the 
books for a couple of decades.
    By contrast, the House bill was scored by the CBO before it 
passed at $1.9 billion, and much of that was in law enforcement 
enhancements, the fence that is proposed in both bills but a 
longer one in the House bill, as well as the cost of getting 
the Social Security database up to snuff so that the 
verification of Social Security numbers that I have described 
can be done as easily and quickly as accurately as a merchant 
swiping any of our credit cards to see if they are good when we 
want to buy something on credit.
    Again, I emphasize the fact that the key to any immigration 
reform that works is enforcement of employer sanctions, because 
the market will always work since it is cheaper to hire an 
illegal immigrant than it is to hire a citizen or legal 
immigrant with a green card.
    Mr. Bradley. Mr. Chairman, reclaiming 10 seconds of my 
time, it is important for people here to note that the CBO or 
the Congressional Budget Office is a nonpartisan office that is 
charged with scoring or estimating the costs of various 
government initiatives. And given the fact that it is 
nonpartisan, Members of Congress on both sides of the aisle do 
depend on it for its unbiased presentation on those numbers. 
And I thank the Chairman. Like Charlie, I have engagements in 
another region of the State so I have to leave shortly.
    Mr. Sensenbrenner. I thank both Members from New Hampshire 
for coming.
    Mr. Meehan.
    Mr. Meehan. I yield to the gentlewoman from Florida.
    Ms. Wasserman Schultz. Thank you. I thank my colleague from 
Massachusetts, and I wonder if either gentleman from New 
Hampshire would like to explain to the crowd assembled why they 
are professing support for increased and enhanced border 
security, yet when they had 10 different opportunities in the 
Congress for additional funding to enhance border security, 
they voted no on every single one of those opportunities.
    Mr. Bradley. I think, certainly, in listening to the 
gentlewoman's question, if you go back and examine the record, 
while I can't speak for Congressman Bass, I probably will, both 
of us have voted for enhanced border security on a number of 
different occasions in the Homeland Security Appropriations 
Bill, House Bill 4437, and other measures which I would remind 
the gentlewoman have been adopted by significant majorities on 
a bipartisan basis and both sides of the aisle, at least the 
appropriations bills. And I would hope that we can continue to 
work together on both sides of the aisle to enhance our border 
security.
    Ms. Wasserman Schultz. Reclaiming my time, I just want to 
point out that we have documentation of the 10 instances in 
which both gentlemen from New Hampshire voted against 
additional funding to enhance border security, and we would be 
happy to provide that and expand on that information after the 
hearing. I yield back to the gentleman from Massachusetts.
    Mr. Meehan. I thank the gentlewoman. I am curious, 
Representative Renzullo, 13 million people, how would we find 
them? This bill says we're going to criminalize them. Would we 
round them up? Would we put them on to planes? How would we 
know what plane to put them on? How many planes would it take? 
Or would we put them on buses? George Will, the conservative 
columnist, says, if you put them on buses, the buses will be 
lined up from Alaska all the way down to the Mexican border.
    I can't for the life of me understand why would we 
demagogue on this and pretend that somebody has some kind of a 
magic way to round up 13 million people and get them on buses 
and put them somewhere. Is that--would they be put on planes?
    Mr. Renzullo. I think what you really are looking to do is 
enforce the border security----
    Mr. Meehan. Reclaiming my time, we're going to do that. But 
what I am saying is, there seems to be a difference of opinion 
between the Senate and the House as to what you do with 13 
million people undocumented all across the country. I am just 
curious how much it would cost to round up 13 million people 
and put them on buses.
    Mr. Renzullo. Enforce the border security, and then we will 
talk about it in a couple of years when you have determined----
    Mr. Meehan. So we're going to go a couple of years? We are 
going to go a couple of years with 13 million people across 
this country without documentation, without papers?
    Folks, I lost 32 people in my district on 9/11, and we need 
to get documentation as a national security matter on everyone 
that is in the country. It is not good enough to say we will do 
it some time later on. 13 million people. With all the money 
that is being spent in Washington, to demagogue on this issue, 
there is not one credible proposal from one Senator or one 
House Member anywhere that says how in the world you would try 
locate 13 million people and remove them from the country.
    It is the worst demagoguery on anything imaginable. Nobody 
has a plan. It is a joke. Unfortunately, our national security 
requires us to get our act together. We still haven't funded 
what the 9/11 Commission said to fund. We passed an act in 2004 
that said 2,000 Border Patrol agents, 800 immigration agents, 
8,000 beds per year. The 9/11 Commission said targeting travel 
is at least as powerful a weapon against terrorists as 
targeting their money, and the Commission made recommendations. 
Even after the tragedy of September 11th highlighting the clear 
need for more border security, that figure up there of 411 
border agents per year is a disgrace. It is an absolute 
disgrace, and yet we are having hearings and demagoguing across 
the country.
    Mr. Delahunt. Will the gentleman yield?
    Mr. Meehan. I would be glad to yield.
    Mr. Delahunt. In terms of border personnel, immigration 
agents, detention centers, with all due respect to the 
gentleman from New Hampshire, what we really need and we have 
heard this term before is more boots on the ground. How about 
that? More boots on the ground. And really, let's try 
enforcement rather than coming up, giving speeches indulging in 
some rhetoric and then not delivering when it comes time to 
deliver with the resources.
    Mr. Meehan. Reclaiming my time. The other thing is this 
idea that Washington speak, the Senate didn't file the right 
thing, so we didn't approve it. My friend from Massachusetts 
said that the President has already called President Fox and 
said, you know what, the Congress is going to do nothing on 
this. Nothing. Another year without border security. I ask 
unanimous consent for 30 seconds.
    Mr. Hostettler. [Presiding.] Without objection.
    Mr. Meehan. Another year letting things go, another year 
without providing technology to our borders and another year of 
13 million people in the country. Nobody knows where they are. 
But know what, what a great election issue. What a great 
election issue. The problem is, when one party controls the 
House, the Senate and the White House, the gig is up. The 
American people know that one party controls everything. There 
are some distinguished Senators, Republican Senators, 22 or 23 
of them, that supported the Senate bill. Let's get to work on 
that. Thank you, Mr. Chairman.
    Mr. Hostettler. The gentleman's time has expired. The Chair 
has left myself, the gentleman from Indiana, in charge of the 
gavel. I will yield myself 5 minutes for purpose of questions.
    I am reminded of the account of the minister who was giving 
a sermon and has questions about his own subject matter when in 
the margin of his sermon it says: Pound pulpit hard, argument 
weak here. I am hearing a lot of that today.
    Mr. Meehan has suggested that we need documentation for 
these individuals that are here. Let me ask you, Mr. Gadiel, 
you are very familiar with the 9/11 Commission's report with 
regard to the three of the 9/11 hijackers that were in the 
country illegally as result of their visas lapsing, are you 
not?
    Mr. Gadiel. Yes.
    Mr. Hostettler. So with all of the documentation that is 
being suggested by the Senate and by Mr. Meehan and by others, 
how would that have solved the situation that led to the death 
of your son?
    Mr. Gadiel. Mohammad Atta was well documented, and yet he 
managed to pull off 9/11, as well as all the others. All but 
one had U.S. identification. I would like to add something. I 
am no friend of President Bush. He failed us miserably on this, 
absolutely miserably. But when it comes to the 9/11 
implementation act, I would remind Members of this Committee 
that it was Democrats like Mr. Lieberman as well as Republicans 
like Mr. McCain who were determined to prevent any document 
security measures from being included in the 9/11 
implementation act as well as the border security measures. 
This is a bipartisan problem, and certainly the President has 
failed us miserably and failed us continuously and refuses to 
enforce the law, but the record of Mr. Clinton before, although 
it is far better than Mr. Bush's in terms of the need, is 
minuscule as well.
    Mr. Hostettler. Dr. Camarota, the question today is with 
regard to busing 13 million illegal aliens back. The simple 
fact is, if we would enforce, especially the employer sanctions 
provision of the immigration act put in place in 1986, wouldn't 
there be a significant amount of attrition and hasn't there 
been a particular study by the Center for Immigration Services 
that may suggest that there may be excess of a million 
individuals who would actually self deport as a result of not 
being able to maintain employment in the United States?
    Mr. Camarota. Let me run through the numbers briefly 
because I, the Pew, Hispanic, Urban, we all generally agree, 
900,000 new illegal aliens come in each year. Some people die. 
A large number go home. Some get deported, and some get legal 
status each year. So the illegal population is thought to grow 
by half a million. The secret here is to avoid this canard that 
either we have to legalize all the illegal aliens or we have to 
deport them all by a week from next Tuesday. The bottom line is 
it took us decades to get into this problem. The policy of 
attrition through enforcement, cutting them off from jobs, 
public benefits, driver's licenses, no in-State tuition, get 
the cooperation of local law enforcement. Stop IRS and Social 
Security from knowingly accepting bogus Social Security 
numbers. Stop the Treasury Department from knowingly issuing 
regulations that allow illegal aliens to open bank accounts.
    All of these things, coupled with great border enforcement, 
a better job in consulates overseas, the goal is to increase 
the roughly 150,000 that go home early each year, the self 
deportations. We think we can quadruple or triple that number 
easily and hopefully get it up bigger so that we are in a 
situation each year that the population falls by half a million 
or a million a year rather than a situation where it grows by a 
million a year. If you are saying that we have to solve it a 
week from next Tuesday, there is no solution.
    The other thing is the bureaucratic capacity doesn't exist 
to legalize all these folks. That's one of the dirty little 
secrets. The Senate bill calls for everybody to come forward 
and be processed within 18 months. Nobody who studies 
immigration thinks that is possible. The only way to do that is 
to rubber stamp the applications which defeats the idea that we 
know who those folks are. It takes time to know who these folks 
are. The Senate bill doesn't do that.
    If you started enforcing the law, it doesn't require us to 
do anything right away. It's what we have on hand and then we 
keep adding to it, and over time, we fix the problem through 
attrition and through enforcement. Self-deportation is the key. 
Though we obviously are going to having to deport more people 
as well.
    Mr. Hostettler. Mr. Renzullo, as you understand the 
legislative process, if one body such as the House believes in 
enforcement and the Senate suggests that they are in favor of 
strong enforcement but want an amnesty program, isn't it 
reasonable for the two bodies to come together and pass 
legislation on the parts of the proposed legislation that we 
agree on?
    Mr. Renzullo. Absolutely.
    Mr. Hostettler. So if we did come together, if the 
technical and constitutional hurdles were overcome, it would 
not be unreasonable for the two bodies to come together and 
fashion an enforcement-only bill as a result of the compromise 
that is part of the legislative process?
    Mr. Renzullo. Absolutely.
    Mr. Sensenbrenner. [Presiding.] The gentleman's time has 
expired.
    The gentleman from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. I yield to my colleague.
    Mr. Meehan. Mr. Gadiel, no one is suggesting that you would 
agree with the President's record on immigration. We all agree 
he has done a terrible job. The problem is that the Republican 
Congress rubber stamps his budget every year when it comes 
before the Congress. No increases that we should have in Border 
Patrol agents, we don't have the increase we should have in 
immigration agents, and we don't have the increase we should 
have in detention beds. The problem is rubber stamping this 
President is letting him get away with whatever he wants to do. 
I yield to the gentleman.
    Mr. Delahunt. I think that was the statement. But if the 
gentleman wishes to respond, and I speak to Mr. Gadiel, you 
know, I read your testimony. I found it particularly moving 
when you referenced, I think it was your father, maybe it was 
your grandfather, who came to this country. And I think the 
words were, the FBI just about took out his fillings to examine 
him. And that really struck a note with me because of what my 
friend just said about the need for oversight by Congress to 
ensure that the resources are there and that the laws are being 
implemented.
    All of the sudden, we are just discovering that there is a 
problem. This is 6 years into the Administration. And beyond 
that, the Republicans have had control of the House since 1994. 
And guess what? They discover it in an election year, and we're 
having a hearing in New Hampshire.
    I mean, please ask yourself why. My colleague from Florida 
referenced the fact there has been amendment after amendment 
that would provide funding and support for more boots on the 
ground, people to go out and enforce the border, immigration 
agents, increased beds in detention centers. And you know what? 
They will say one thing in New Hampshire, but when they go down 
to Washington, they vote against the funding. Well, enough 
said.
    But getting back to my issue about the FBI, we don't know 
what the FBI is doing. This Committee, ably led by this 
Chairman, who is not bad on oversight. Okay? Not bad. A B-plus. 
You know----
    Mr. Sensenbrenner. Will the gentleman yield?
    Mr. Delahunt. No.
    Mr. Sensenbrenner. At least I passed.
    Mr. Delahunt. How many times do you think we have had the 
director of the Federal Bureau of Investigation in front of 
this Committee to tell us what they are doing about terrorism?
    Mr. Gadiel. I have no use for Mr. Mueller. When a group of 
family members met with the man talking about 9/11----
    Mr. Delahunt. How many times, Mr. Gadiel, do you think that 
the FBI has come in before into the Judiciary Committee where 
we have jurisdiction to respond to the concerns that you have 
expressed today to us?
    Mr. Gadiel. I'm sure it is a lot. I am sure it is many 
times.
    Mr. Delahunt. How about zero. That is what we're dealing 
with. That is what we're dealing with. We don't have that kind 
of consultation and collaboration. And like I said, we are 
fortunate; most chairmen are not as strong as our Chairman. So 
what we have is a Congress that sits there like a bobblehead 
and lets this crowd get away with that.
    Talk about employer sanctions. Three last year. Three in 
2004. I mean, Clinton had his problems, but he certainly did 
one heck of a better job in terms of enforcement.
    You have got to have enforcement. If you don't have 
enforcement--but you have to pay for it, Mr. Renzullo. I bet 
that you, from what I listened to, would have voted for all the 
authorized Border Patrol agents, immigration agents and 
detention centers. You wouldn't have said something here that 
was different when you went down to Washington and voted a 
different way.
    Since I'm handing out compliments, one for you, too, Mr. 
Camarota, you know, I read your testimony, and I was surprised 
that you acknowledged that actually it is a net plus in terms 
of illegals paying into the Social Security Trust Fund and the 
Medicare Trust Fund. So let's remember, before we get too 
quick, that those illegal immigrants are paying in and kind of 
helping us with that Social Security problem that we are not 
fixing.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from Florida, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    I just want to illuminate the panel and the people 
assembled as to the other differences and stark contrast 
between the support for border enforcement and border security 
under Democrats versus the support for border enforcement and 
security under Republicans.
    The number of apprehensions at the border has declined by 
31 percent under President Bush. From 1996 to 2000, there were 
1.52 million apprehensions at the border. From 2001 to 2004, 
there were 1.05 million apprehensions. The number of 
apprehensions inside the country has declined 36 percent under 
President Bush. From 1996 to 2000, there were 40,193 internal 
apprehensions. From 2001 to 2004, there were 25,901. Cutting 
personnel, the Bush administration has cut personnel for 
worksite enforcement by 63 percent. This is worksite, on-the-
job enforcement. You know, the I-9 forms that employees, all 
employees, have to fill out and ensure that they are supposed 
to be in the country and legally here. We are talking about the 
number of agents assigned to worksite immigration enforcement. 
In 1999, there were 240. In 2003, there were 90.
    Number of worksite enforcement fines, we have already gone 
over. The number of worksite immigration enforcement arrests 
have fallen drastically under President Bush: 2,849 in 1999; 
445 in 2003.
    Number of immigration fraud cases, we have already gone 
over that.
    So what is unbelievable to us is that there are hearings 
all across this country in which our Republican colleagues--and 
I agree with Mr. Delahunt that our Chairman, compared to most 
of the Republican Committee Chairmen, has been vigilant about 
bringing or attempting to bring the Administration's officials 
in front of us and asking them questions to one degree of 
success or another. But why are we on the road talking about 
this instead of being in the Conference Committee?
    The only way we are going to resolve this--I think it was 
Mr. Camarota that talked about the 18 months that is a 
provision in the Senate bill that is described as an automatic 
path to citizenship. There is no one that would define the 
Senate bill as an automatic path to citizenship. But if you 
differ with that--I apologize if I am pronouncing your name 
wrong.
    Mr. Camarota. Camarota.
    Ms. Wasserman Schultz. Mr. Camarota, if you differ with 
that, isn't that what the Conference Committee is for? Are we 
going to get those differences between the House bill and the 
Senate bill hammered out here? That is not the way the bill 
becomes a law process works.
    So wouldn't you think that we belong in Washington or at 
least our conferees belong in Washington? And, Mr. Chairman, 
with all due respect, the people in this room, they don't 
understand the Senate has not sent us a message, and we haven't 
received a message. They just want us to get down, roll our 
sleeves up and get the work done. That is how we're going to 
get a law that is truly going to make sure that we crack down 
on illegal immigrants, that we make sure that they are not 
streaming across the border, that we make sure that employers 
are not thumbing their nose at the law, and that we make sure 
that we don't ignore the fact that there are 12 million people 
here who are not going to just deport themselves once we pass a 
border-security-only law that makes them all felons. It is just 
unrealistic.
    Mr. Camarota, if you would like to respond to that, don't 
you think we belong in conference rather than just being on the 
road talking to the world?
    Mr. Camarota. I have to leave that questions to the other 
Members. I am not an expert.
    Ms. Wasserman Schultz. I am not surprised. I yield back the 
balance of my time.
    Mr. Sensenbrenner. The Chair will yield himself 5 minutes 
for the last word. I have served on the Judiciary Committee 
ever since I was first elected to Congress in 1978, and the 
issue of how to deal with immigration is complicated. It is 
emotional. It is vexing. And there are never any easy solutions 
to it. And I think my colleagues to my left are kind of 
expressing the political aspects of the frustration that we 
have not dealt with this issue. That's why I drafted the 
legislation that the House passed in December.
    Now, we have heard a lot of complaints from people on both 
sides of the aisle that there has not been enforcement of 
existing laws. And I would be willing to stipulate that 
presidents, both Democratic and Republican, and congresses, 
both under Democratic control and Republican control, have 
really let this issue slip.
    But the point that I think is evident is that unless we 
handle the enforcement questions first, any bill, whether it is 
the Senate bill or somebody else's bill, that does not address 
effective enforcement is going to fail. And if in the decades 
ahead there are figures like these, which are accurate and 
which I did give to President Bush over 2 months ago, pointing 
out the problem that we have, the market is always going to end 
up having illegal immigrants come across the border because it 
is cheaper for the employers to hire them than other people.
    So really what we have to do, whether it is in terms of an 
enforcement-only approach and deal with the issue of what to do 
about the 12 million who are here illegally some time in the 
future, or have some kind of a phased in and trigger approach, 
is that we have got to get our act together as a country in 
terms of enforcing it is law.
    Now, what this means is enforcing the law at the border. It 
means enforcing the law against employers. It means giving law 
enforcement officials, particularly those in the 29 border 
counties and four States on the southwest border, additional 
tools, which my bill does and the Senate bill doesn't, to get 
more boots on the ground and better equipment and better 
training of the local law enforcement officers so that they can 
supplement the Border Patrol.
    Now, this is more than a human problem and an economic 
migration problem. It has become a drug control problem, and it 
has become a national security and terrorism problem. For 
example, many of the criminal alien smugglers across the 
southwest border who are called coyotes have become full 
service criminal enterprises where they are requiring their 
customers to carry backpacks of drugs across the border; 85 
percent of the illegal drugs sold on the streets of Chicago by 
gangs were smuggled across the southwest border, and 80 percent 
of the meth that is consumed in the United States comes across 
the southwest border as well.
    It is also a terrorism problem, and when we had our 
hearings in San Diego, there was testimony to the effect that, 
in just that small sector of the Border Patrol, there were 47 
``persons of interest,'' who were people who were on terrorist 
watch lists or came from Middle Eastern countries far removed 
from Mexico and Central America who were caught by the Border 
Patrol. And that was in just 1 year and just in one segment of 
the southwestern border.
    And we have also got a northern border problem as well, 
because there are a number of cells of Al Qaeda and other 
terrorist organizations that are operating in Canadian cities 
that are less than a 2-hour drive from the United States 
border.
    So I don't make any apologies in bringing this issue on to 
the national agenda, because it is something that had to be 
dealt with. I have been called a whole lot of names. I come 
from the State that elected Joe McCarthy to the U.S. Senate 
twice and some of those names, it makes McCarthyism kind of 
look like a speech at a holy name society.
    Be that as it may be, we were elected to make tough 
decisions, and this Chairman is making tough decisions. I want 
to get another bill passed. I don't know if procedurally we can 
get another Conference Committee for the reasons that have been 
described, but it is going to be a bill that, if it is done on 
my watch, that is going to be effective and not be the fiasco 
that we had 20 years ago with the Simpson-Mazzoli bill.
    So I would like to thank my colleagues for coming. I would 
like to thank all of you for coming today to hear this 
testimony. And I would like to also thank--I don't think they 
call it the great and general court up here north of the border 
as they do in Massachusetts, but whatever the New Hampshire 
legislature is called, it is nice to add just a little more 
history to this very historic chamber.
    What purpose does the gentleman from Massachusetts seek 
recognition?
    Mr. Meehan. Mr. Chairman, I would like to ask unanimous 
consent--I bumped into Claire Ebel, the Executive Director of 
the New Hampshire Civil Liberties Union, she had some 
testimony, and I ask that we submit it for the record.
    [The information referred to was not available at the time 
this hearing was printed.]
    Mr. Sensenbrenner. Without objection, it will be submitted. 
There being no further business to come before this Committee, 
without objection, the Committee stands adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Charles F. Bass, a Representative 
      in Congress from the State of New Hampshire, with attachment

                              INTRODUCTION

    I like to take a moment and welcome Chairman Sensenbrenner and the 
other members of the House Judiciary Committee to the Granite State. I 
thank you for your invitation to attend this field hearing on 
immigration reform and giving me the opportunity to participate. I am 
pleased to see on the panel of witnesses today--Representative Andrew 
Renzullo--who has been taking an active role here in Concord on how the 
State should deal with its illegal immigration problem.
    In light of the fact that illegal immigration is a more prominent 
problem in the southern states, I am pleased that the Members of the 
House Judiciary Committee recognize that any decision made in Congress 
will have far-reaching ramifications throughout the nation. The 
estimated 11 million illegal immigrants in the U.S. can be founded in 
all fifty states and decisions made by myself and my colleagues will 
fiscally impact our citizens. Therefore, I am grateful for this hearing 
today and how any reform will affect my constituents.
    Immigrants have been settling here in our state since 1623 and 
continued to come in large numbers through the 1800s. Many of them came 
to work in our granite quarries. Even though the number of immigrants 
to New Hampshire has decreased since the early 1900s, the 2000 U.S. 
Census showed that over 54,000 citizens of New Hampshire were foreign-
born. Even though the majority of immigrants in NH are law-abiding 
legal citizens, there is a growing illegal population working and 
living in our communities

                            LAW ENFORCEMENT

    Some studies have estimated that between 10,000 to 30,000 illegals 
are currently living in the Granite State.\1\ Just this last spring, 
U.S. Immigration and Customs Enforcement (ICE) picked up 14 individuals 
illegals in New Hampshire as part of Operation Return to Sender. During 
2005 Operation Flash, 15 of the 189 fugitive immigrants deported back 
to their native countries were also located living in New Hampshire. In 
both operations, many of these individuals had criminal records.\2\
---------------------------------------------------------------------------
    \1\ Pew Hispanic Center. (April 26, 2006). Fact Sheet: Estimates of 
the Unauthorized Migrant Population for States based on the March 2005 
CPS.
    \2\ Marchocki, Kathryn. (July 24, 2006). Mysteries surround NH's 
illegal aliens. Union Leader.
---------------------------------------------------------------------------
    New Ipswich Police Chief W. Garrett Chamberlain and Hudson Police 
Chief Richard Gendron brought national attention to their departments' 
difficulties in the lack of authority and resources in detaining 
illegal aliens that their officers encounter during their routine 
duties. Out of frustration with ICE's response to their repeated 
requests, both gentleman used the resources available to them and 
charged several individuals illegally present in the United States with 
criminal trespassing under state law. Even though the cases were 
dismissed by a New Hampshire district court, it highlighted the 
difficulty law enforcement faces regarding illegal immigration in their 
communities. Our local, county, and state law enforcement officers 
serve on the frontlines of the illegal immigration battlefield--dealing 
with many illegal aliens that they encounter during their routine 
duties, but no ability to detain these individuals for deportation 
proceedings--often being told by the federal agencies to release the 
individuals.
    I have worked on various efforts to urge the Administration and my 
fellow colleagues to address enforcement issues. Last year, I led an 
effort to urge the President to end ``catch-and-release'' practices 
beyond just that in border states--but throughout the country.\3\ 
Additionally, I have supported legislative measures, such as H.R. 4437 
and the CLEAR Act, which would ensure that state, county, and local law 
enforcement have the authority, resources, and training to work with 
federal agencies in detaining illegal aliens they encounter during 
their routine duties. It is important to note that 17% of the 
incarcerated population in our federal prisons are criminal aliens and 
after serving their time are not always deported, but remain in this 
country to commit additional crimes.\4\
---------------------------------------------------------------------------
    \3\ December 9, 2005 Letter Addressed to President Bush with 28 
U.S. House Members.
    \4\ Camarota, Steven A. (August 2004). The High Cost of Cheap Labor 
Illegal Immigration and the Federal Budget. Center for Immigration 
Studies.
---------------------------------------------------------------------------
                             FISCAL BURDEN

    In deciding any course of action regarding comprehensive 
immigration, it is important to know the fiscal impact the decision 
will have on our citizens--whether through increase tax burden, 
draining of resources, or loss of jobs and wages. It has been estimated 
from earlier studies that illegal immigrants have a net cost on 
American taxpayer of $49.4 billion annually,\5\ which amounts to New 
Hampshire citizens paying $202,193,903 yearly in taxes for illegal 
immigrants.\6\ It is also roughly estimated that the State of New 
Hampshire spent close to $3.75 million on illegal alien students and 
U.S. born children of illegal aliens \7\ and hundred of thousands of 
dollars in medical costs through the New Hampshire Department of Health 
and Humans Services. Overall, the Federation of American Immigration 
Reform has calculated that the current local cost of illegal immigrants 
is $11 million annually going toward education, emergency medical 
services, and incarceration.\8\
---------------------------------------------------------------------------
    \5\ Based on Data from: Huddle, Donald. (1997) The Net National 
Costs of Immigration: Fiscal Effects of Welfare Restorations to Legal 
Immigrants. Include in The Estimated Cost of Illegal Immigration from 
The Federation for American Immigration Reform (FAIR).
    \6\ U.S. Census Population (2000). US = 299,482,393; NH = 
1,235,786.
    \7\ Federation for American Immigration Reform. (June, 2005). 
Breaking the Piggy Bank: How Illegal Immigration is Sending Schools 
into the Red
    \8\ Federation for American Immigration Reform (April 11, 2006). 
The Costs to Local Taxpayers for Illegal or ``Guest'' Workers.
---------------------------------------------------------------------------
    If the Senate bill was passed, it is estimated that the cost to 
county, state, and local governments would amount to $61.5 billion by 
2010 and $106.3 billion in 2020.\9\ Specifically, New Hampshire would 
see the burden increasing to $19 million in 2010 and $34 million in 
2020.\10\
---------------------------------------------------------------------------
    \9\ Federation for American Immigration Reform (April 11, 2006). 
The Costs to Local Taxpayers for Illegal or ``Guest'' Workers.
    \10\ Federation for American Immigration Reform (April 11, 2006).  
The Costs to Local Taxpayers for Illegal or ``Guest'' Workers.
---------------------------------------------------------------------------
    Additionally, it is predicted that if the Senate's guest-worker 
provision is passed that New Hampshire would see a rise in population 
to 1.85 million by 2050, with the increase attributed to 23,116 from 
receiving amnesty and an additional 24,427 individuals that were 
illegal aliens post-2004.\11\ These increases would have significant 
impact on the State's housing, school systems, infrastructure, and 
employment rates.
---------------------------------------------------------------------------
    \11\ Federation for American Immigration Reform. (March 2006). 
Projecting the U.S. Population to 2050: Four Immigration Scenarios.
---------------------------------------------------------------------------
    Even though there would be increased tax revenue from illegal 
aliens paying taxes, it would not offset the total cost that these 
households would have on our federal, state, and local agencies. The 
average illegal alien household would pay $3,200 (77%) more a year in 
federal taxes once legalized. However, each household would have an 
average increase cost of $8,200 per household (118%) \12\ to our 
deficit. This added cost on our federal, state, and local services 
would be carried by our citizens.
---------------------------------------------------------------------------
    \12\ Camarota, Steven A. (August 2004). The High Cost of Cheap 
Labor Illegal Immigration and the Federal Budget.
---------------------------------------------------------------------------

                        REFORMING VISA PROGRAMS

    I understand how the topic of illegal immigration is a difficult 
issue--we are not simply talking about numbers but people who have 
established lives here. This country needs to continue to be 
compassionate, but at the same time it must be remembered that those 
that would be assisted under the Senate ``amnesty'' immigration plan 
are individuals who violated our laws. There are millions of people who 
are either in the U.S. legally or currently trying to attempt to this 
country by following our laws that would be overlooked by this policy. 
Instead, the message that we would be sending them is that the U.S. 
cares more about assisting those who break our laws rather than those 
who have been patient with our system. By allowing those illegally here 
to have an expedited process--while others in this country under other 
various visas such as H-1B and H-2B are barred--is wrong and not the 
message this government should be sending.
    Nevertheless, I do believe that any comprehensive immigration 
reform should also consider provisions that will reform our visa 
programs. The availability of foreign workers is crucial to many of 
American industries and business--including those in New Hampshire. New 
Hampshire's unemployment rate is 3.6 percent, well below the national 
rate of 4.8 percent, and often foreign workers mean the difference to 
Granite State businesses in being able to operate at full capacity.\13\ 
These low unemployment rates particularly impact our State's small 
seasonal businesses that often have difficultly in finding workers that 
are critical to their business' needs. Here in New Hampshire, tourism 
industry brings an approximately $9.6 billion into the state and is 
nearly 8% of the gross state products. More than 68,000 granite state 
jobs directly tied to tourism and also 84,000 jobs indirectly.\14\ 
Programs, like H-2B visa program, provide these and other seasonal 
industries crucial employees to fulfill their job commitments and be 
able to operate at full capacity during their short work season. The H-
2B program has been shown to protect small businesses and American 
jobs, preserve competitive wages, while providing the needed avenue for 
foreign workers. That is why I have supported and led efforts in 
modifying legal visa programs. My bill, H.R. 4740, the Save Our Small 
and Seasonal Businesses Act is one of the bills that would take the 
right step forward in helping businesses while not hurting American 
workers.
---------------------------------------------------------------------------
    \13\ New Hampshire Economic and Labor Market Information Bureau. 
(August 11, 2006).
    \14\ New Hampshire Tourism Policy Coalition.
---------------------------------------------------------------------------
    Additionally, it is important to look to the future and ensure that 
we have the necessary workers that will allow our economy to grow and 
prosper. One in every four scientist and engineers in the United States 
is foreign born. Half of graduate enrollments in American universities 
for engineering, math, and computer science are foreign students. I 
believe that our country must encourage increase enrollment of our 
young people, but at the same time we must ensure that our immigration 
policies do not create a brain drain on our country. Our visa programs 
must ensure that we keep the best and brightest here in America to 
bring cutting edge technology to our companies that will in turn create 
more U.S. jobs. A June 2004 study showed that U.S. businesses roughly 
lost $30 billion over two year period due to visa delays.\15\ Our 
country can not afford to outsource talented American-educated 
foreigners that will return to their home country and take with them 
important technical advances that will create new businesses.
---------------------------------------------------------------------------
    \15\ Data from: June 2004 Study Commissioned by Santangelo Group.
---------------------------------------------------------------------------
                               CONCLUSION

    In conclusion, I like to point out that by supporting the House 
comprehensive immigration bill that members are not ignoring or 
belittling the contributions of our nation's immigrants and the role 
they have played in building this country. Our country has been built 
on the hard work of immigrants who have come to this country for a 
better life and to embrace the ideals of our nation. The difference of 
opinion is how to deal with illegal aliens that have entered this 
country and placed the security and welfare of our nation in jeopardy. 
Additionally, illegal immigration has a significant negatively 
impacting our legal visa program. Once again, I thank Chairman 
Sensenbrenner for having this field hearing. Additionally, I would like 
to thank the witnesses and the citizens here in the audience that have 
taken the time out of their busy schedules to attend this hearing and 
have the concerns of New Hampshire heard in this national debate.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Letter to the House Judiciary Committee from the Honorable Jordan 
               Ulery, New Hampshire State Representative

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of David Lamarre-Vincent, Executive Director, New 
                     Hampshire Council of Churches

    The religious leaders of all faiths in this country have spoken 
eloquently regarding the urgent need for comprehensive immigration 
reform. The principles that this reform should be grounded upon has 
been enunciated by other speakers here today.
    I would like to take my time to draw attention to the convictions 
the New Hampshire religious leadership.
    One, the urgent need is for a reasoned consideration of overall 
U.S. immigration policies, not the use of immigration reform by 
partisan politics. This is an area that directly affects the lives of 
millions of individuals and their families here in the United States, 
both with and without documentation. It affects the lives of millions 
of other individuals and families who wish to participate in the 
freedoms and opportunities that we take for granted in the U.S. We know 
this through our direct experience with ethnic faith communities here 
in New Hampshire from all continents of the world. Therefore, we plead 
for both the House and Senate to set aside partisan politics and focus 
upon the comprehensive immigration reform opportunity that is before 
you at this very moment.
    Second, we urge Congress to avoid letting this civil discussion 
slide into a divisive and narrow diatribe. This is a time for Congress 
to demonstrate through their actions that public discussion and 
legislation resolution of immigration policy can be done in a civil 
manner with respect for all. This extends beyond avoidance of partisan 
politics but also steering clear of a descent into mean spirited focus 
upon individual groups of immigrants, both documented and undocumented, 
as though they, the victims of global economic transformation and 
regional national circumstances, are the problem to be solved.
    A civil discourse must avoid ethnic stereotyping and a blame the 
victims focus. All sides in this public discourse should be invited to 
be heard with courtesy and respect that is their right as human beings. 
Only under these conditions can Congress lead the American people to a 
higher level of understanding and a resolution that fits the needs of 
all parties, the American economy, other world economies, workers and 
families. This is a rare opportunity for Congress to truly lead for the 
generation to come as we enter the 21st century.
    Finally, this is an issue close to many in New Hampshire, who like 
myself, are second or third generation immigrants from French speaking 
Canada. As the largest ethnic minority in Northern New England, we have 
our own personal experiences of being strangers in a new land. We 
understand the challenges that immigration policy, language barriers, 
and economic status confronted our parents and grandparents. We bring 
who we are to this larger debate and urge that Congress seize upon this 
as an opportunity to lift up the highest values of human dignity and 
brotherhood of all.

                               __________
Prepared Statement of the Rt. Rev. Douglas E. Theuner, VIIth Episcopal 
 Bishop of New Hampshire, Member of the Board of Directors of Lutheran 
                     Social Services of New England

    Members of religious organizations in New Hampshire, as elsewhere 
in the United States, are aware of the enormous contribution made to 
our economic and social well being by undocumented aliens who work in 
our midst, and upon our behalf; particularly as migrant farm workers.
    The religious community seeks for ALL persons, government support 
in providing the following basic human rights:

        <bullet>  uniting families separated by economic and political 
        factors not of their own making and providing opportunities for 
        them to prosper in and for the larger community;

        <bullet>  assuring ALL persons of the human and workforce 
        rights;

        <bullet>  ending marginalization of ALL people which force them 
        into situations which exploit and abuse them;

        <bullet>  providing access to citizenship to those responsible 
        people who have helped this nation to prosper.

    Millions of undocumented aliens in our midst are a reality 
generated by their needs and those of our economy. They are also a 
legal anomaly which must be regularized in a positive and constructive 
way.
    The healthcare, local educational and social service costs of the 
presence of undocumented aliens is far offset by the contribution they 
make to our economy. That's why they're here. That's why we accept them 
in our midst. It's time for Congress to act in a way that turns that 
acceptance into welcome, ensuring ALL people of the basic rights which 
we hold dear for ALL people.

                                 <all>

</pre></body></html>
